<html>
<title> - EXAMINING THREATS AND PROTECTIONS FOR THE POLAR BEAR</title>
<body><pre>[Senate Hearing 110-1236]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1236

 
          EXAMINING THREATS AND PROTECTIONS FOR THE POLAR BEAR

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            JANUARY 30, 2008

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works


          EXAMINING THREATS AND PROTECTIONS FOR THE POLAR BEAR




                                                       S. Hrg. 110-1236



          EXAMINING THREATS AND PROTECTIONS FOR THE POLAR BEAR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
82-737                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 30, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from The State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    14
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......   148
Lieberman, Hon. Joseph., U.S. Senator from the State of 
  Connecticut....................................................   148
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........   150

                               WITNESSES

Hall, H. Dale, Director, U.S. Fish And Wildlife Service, 
  Department of The Interior.....................................   151
    Prepared statement...........................................   154
Kelly, Brendan P., Ph.D., Associate Professor of Marine Biology, 
  Associate Vice President For Research, University of Alaska....   175
    Prepared statement...........................................   178
Williams, Margaret, Managing Director, Kamchatka/Bering Sea 
  Ecoregion Program, World Wildlife Fund.........................   183
    Prepared statement...........................................   185
Glenn, Richard, Alaskan Arctic Resident, Sea Ice Geologist.......   237
    Prepared statement...........................................   239
    Responses to additional questions from Senator Boxer.........   243
Armstrong, J. Scott, Ph.D., Professor of Marketing, The Wharton 
  School, University of Pennsylvania.............................   243
    Prepared statement...........................................   245
Wetzler, Andrew E., Director, Endangered Species Project, Natural 
  Resources Defense Council......................................   296
    Prepared statement...........................................   298

                          ADDITIONAL MATERIAL

Statements:
    Jamie Rappaport Clark, Executive Vice President Defenders of 
      Wildlife...................................................   340
    Jack Lentfer, Alaskan Wildlife Biologist, Alaskan 
      Conservation Foundation....................................   351
    Mary Simon, President Inuit Tapiriit Kanatami................   354
    Artic Slope Regional Corporation.............................   358
Congressional Research Service, CRS Report for Congress, Polar 
  Bears: Proposed Listing Under the Endangered Species Act.......   407
Articles:
    Science Direct, Polar Bears of Western Hudson Bay and Climate 
      Change: Are Warming Spring Air Temperatures the "Ultimate" 
      Survival Control Factor....................................   421
    International Arctic Research Center University of Alaska 
      Fairbanks: Is the Earth Still Recovering from the ``Little 
      Ice Age''?.................................................   433
    World Wildlife Fund: Facts and Fallacies About Polar Bears...   456
    National Research Council: Cumulative Environmental Effects 
      of Oil and Gas Activities on Alaska's North Slope..........   464
    Department of Interior: Five-Nation Conference on Polar Bears   467


          EXAMINING THREATS AND PROTECTIONS FOR THE POLAR BEAR

                              ----------                              


                      WEDNESDAY, JANUARY 30, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lieberman, Lautenberg, 
Klobuchar, Warner, Barrasso, Craig.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everyone. Very happy to be 
here with my distinguished Ranking Member, Senator Inhofe, my 
friend. We don't agree on everything, but we are good friends.
    The Committee today is going to examine threats and 
protections for one of the most magnificent creatures in the 
world, the polar bear. I am just going to show a couple of 
charts, just how beautiful this creature is, and the next one 
as well, which shows the mama bear. Let's just put that up 
there for a minute.
    There are an estimated 20,000 to 25,000 polar bears in 19 
populations in the Arctic. But scientists are greatly concerned 
about their future, due to global warming and melting sea ice, 
which they depend on to hunt and den. So I am going to show a 
picture, this is the denning that goes on in the ice. Also, we 
have a picture of the polar bear getting ready to hunt its 
prey, standing on the ice and getting the necessary traction to 
make his or her move.
    In December 2006, George W. Bush's Interior Secretary, our 
former Republican colleague and friend, Dirk Kempthorne, said 
``Polar bears' habitat may literally be melting.'' So I want to 
reiterate that. This is the Bush administration's Secretary of 
the Interior: ``Polar bears' habitat may literally be 
melting.'' And then we are going to show you what this looks 
like when the ice begins to melt. If you look at the very top, 
that is what is left of the ice. We start in 1980, then 2005 
and then 2007. You can see the shrinking of the ice.
    It is a sad statement on the health of the planet when such 
a majestic species as the polar bear could be lost due to human 
activities. I view this as a moral issue, because I think the 
polar bear is one of God's most magnificent creatures. 
Thankfully, we have an important law to help protect imperiled 
species. It is called the Endangered Species Act, which helps 
preserve species and the places they live. For the polar bear, 
that includes the sea ice. As Secretary Kempthorne said, that 
sea ice is literally melting away.
    However, in general, the Endangered Species Act and its 
protections begin when a species is listed as threatened or 
endangered. Unfortunately, this Administration, has utterly 
failed to do what it is supposed to do to save the polar bear. 
I look at today as a moment of truth: are they going to do it 
or not do it in time?
    Unfortunately, we have seen the Administration fail to take 
other steps to combat global warming. This is just one.
    Oversight is about accountability. It is about seeing 
whether any administration, Democratic, Republican, this one, 
the next one and the ones after that, whether they are living 
up to their obligations to the American people. I intend to 
continue to shine a spotlight on the Administration's actions.
    Director Hall, on some things we certainly do agree. On 
January 17th, 2008 you said, ``We need to do something about 
climate change, starting yesterday, and there needs to be a 
serious effort to look at greenhouse gases.'' But sir, with all 
due respect, you were also supposed to do something specific 
about the polar bear yesterday. In fact, you were obligated 
under the Endangered Species Act to list or withdraw your 
proposed listing for the polar bear by no later than January 
9th, 2008.
    The Fish and Wildlife Service got off to a slow start. It 
was only after being sued by conservation groups that it even 
began the process of considering whether to list the polar 
bear. And I want to thank those groups. Without you, we would 
be nowhere.
    However, I find it curious that while our agency in the 
Interior Department is dragging its feet to list the polar 
bear, another agency in the Interior Department is moving 
quickly. The Minerals Management Service is charging full speed 
ahead to allow new oil and gas drilling activities in one of 
the biological hearts of the polar bear's domain, the Chukchi 
Sea, and we will show you the Chukchi Sea and the neighboring 
Beaufort Sea are home to nearly one-fifth of the world's polar 
bears.
    Despite this, nearly 30 million acres of the Chukchi Sea 
will likely be opened to oil and gas leasing on February 6th. 
Had the polar been listed on the day it was supposed to have 
been listed, the MMS would have been required to consult with 
Fish and Wildlife Service. Because the listing is already long 
overdue, there should be no further delay. And I would like for 
you today to give us a firm commitment to take immediate action 
to protect the polar bear.
    The American people want their grandchildren to share in 
the wonder of the polar bear. It is our moral obligation to 
protect God's creatures on earth. I look forward to hearing 
your testimony and that of the other witnesses, and I hope you 
will give us a really good surprise today. I hope you will say 
you are ready to do this listing before this lease starts, so 
that Fish and Wildlife can have input into this drilling.
    Senator Inhofe.
    [The prepared statement of Senator Boxer follows:]

        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California

    Today, this Committee examines threats and protections for 
one of the most magnificent creatures in the world: the polar 
bear. There are an estimated 20,000-25,000 polar bears in 19 
populations in the Arctic. But scientists are greatly concerned 
about their future, due to global warming and melting sea ice, 
which they depend on to hunt and den.
    As a matter of fact, in December 2006, George W. Bush's 
Interior Secretary, our former Republican colleague, Dirk 
Kempthorne said: ``polar bears' habitat may literally be 
melting.'' These pictures help demonstrate this more than 
Secretary Kempthorne's or my words ever could. It is a sad 
statement on the health of the planet when such a majestic 
species as the polar bear could be lost due to human 
activities.
    Thankfully, we have an important law to help protect 
imperiled species--the Endangered Species Act, which helps 
preserve species and the places they live. For the polar bear, 
that includes sea ice. And it is literally melting away. 
11However, in general, the ESA and its protections begin when a 
species is ``listed'' as threatened or endangered. 
Unfortunately, this Administration has utterly failed to do 
what it is supposed to do to save the polar bear.
    Just as it has failed to take the necessary steps to combat 
global warming. Oversight is about accountability; it is about 
seeing whether any Administration--Democratic or Republican--is 
living up to its obligations to the American people and I 
intend to continue to shine a spotlight on the Administration's 
actions.
    Director Hall, on some things we agree. On January 17, 2008 
you said: ``We need to do something about climate change 
starting yesterday, and there needs to be a serious effort to 
look at greenhouse gases.'' But sir, with all due respect, you 
were also supposed to do something about the polar bear 
yesterday--in fact, you were obligated under the Endangered 
Species Act to list, or withdraw your proposed listing for the 
polar bear by no later than January 9, 2008.
    The Fish and Wildlife Service got off to a slow start. It 
was only after being sued by conservation groups that it even 
began the process of considering whether to list the polar 
bear. However, I find it curious that while your agency in the 
Interior Department is dragging its feet to list the polar 
bear, another agency in the Interior Department--the Minerals 
Management Service is charging full speed ahead to allow new 
oil and gas drilling activities in one of biological hearts of 
the polar bear's domain--the Chukchi Sea.
    The Chukchi Sea and the neighboring Beaufort Sea are home 
to nearly 1/5th of the world's polar bears. Despite this, 
nearly 30 million acres of the Chukchi Sea will likely be 
opened to oil and gas leasing on February 6th. Had the polar 
bear been listed on the date the Fish and Wildlife Service was 
obligated to list, the MMS would have been required to consult 
with the Fish and Wildlife Service.
    Because this listing is already long overdue, there should 
be no further delay. I would like a firm commitment to take 
immediate action to protect the polar bear. The American people 
want their grandchildren to share in the wonder of the polar 
bear. It is our moral obligation to protect God's creatures on 
earth. I look forward to the testimony of the witnesses.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U. S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. Before I start 
my time, I have three things to put into the record. I note 
that Senator Stevens, from Alaska, has been very involved in 
this issue. He wanted to be here today, Madam Chairman, and 
could not do it. So without objection, I would like to have his 
statement in the record, and would encourage our colleagues to 
read it.
    Along with that, the comments I received from the American 
Farm Federation and the Alaska Native Regional Corporation, all 
three in the record.
    Senator Boxer. We will be happy to do that at your request, 
sir.

    [The referenced statements from the American Farm 
Federation and the Alaska Native Regional Corporation was not 
submitted in time for print.]
    [The referenced statement of Senator Stevens follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.153
    
    [GRAPHIC] [TIFF OMITTED] T2737.154
    
    [GRAPHIC] [TIFF OMITTED] T2737.155
    
    [GRAPHIC] [TIFF OMITTED] T2737.156
    
    [GRAPHIC] [TIFF OMITTED] T2737.157
    
    [GRAPHIC] [TIFF OMITTED] T2737.158
    
    Senator Inhofe. A lot has been said about the polar bear, 
the threats it allegedly faces and what should be done about 
it. In 2006, the United States Fish and Wildlife Service, under 
force of litigation, proposed to list the polar bear as a 
threatened species under the Endangered Species Act, based on 
concerns over retreating Arctic sea ice. The Service asserts 
that the reason for the decline in one or two bear populations 
is climate change. To make that assertion, they rely on 
hypothetical computer models showing massive loss of ice, 
including a recent U.S. Geological Survey modeling prediction 
that shrinking sea ice could eliminate two-thirds of the 
world's polar bears by 2050. Now, again, these are computer 
models which are constantly a problem.
    This is a classic case of reality versus unproven computer 
models. I look forward to the testimony of Scott Armstrong, an 
Ivy League professor and the Nation's leading expert on 
forecasting methodology, who along with an Arctic climate 
change expert, authored a paper that challenges the USGS 
modeling.
    The decision on whether or not to list the bear rests 
currently on computer models. Those models are invalid and any 
decision based on them is not justified.
    Ironically, physical observation of the bear tells a much 
different story. The Fish and Wildlife Service estimates that 
there are currently, as the Chairman said in her opening 
statement, 20,000 to 25,000 polar bears. In the 1950's and 
1960's, there were somewhere between 5,000 and 10,000 polar 
bears. So we are talking about an increase of somewhere between 
doubling and four times the number of polar bears there were 
just a few years ago. Canadian biologist, Dr. Mitchell Taylor, 
the director of wildlife research at the Arctic Government of 
Nunavut, dismisses these fears with evidence-based data on 
polar bear populations in Canada, where two-thirds of the 
world's bears reside.
    Of the 13 polar bear populations out there, all but 2 are 
either growing or are stable. And the two I think are in the 
area, the western Hudson Bay area. A lot of that is due to 
regulations, hunting regulations that are being changed at this 
time. Just last month, researchers discovered an ancient polar 
bear jaw that dates back more than 100,000 years, to a time far 
warmer than it is at the present time. One award-winning 
geologist and professor from the University of Iceland said 
about the discovery, he said that ``Despite the ongoing warming 
in the Arctic today, maybe we don't have to be quite so worried 
about the polar bear.''
    I would like to enter into the record actually three 
things. First of all a fact sheet that I have prepared with 
statements from biologists and wildlife scientists who have 
taken issue with the predictions of the demise of the polar 
bear. Also to put into the record separate statements from Dr. 
Susan Crockford, a Canadian evolutionary biologist and Dr. 
Matthew Cronin, a professor of animal genetics at the 
University of Alaska, Fairbanks.
    Senator Boxer. We will be happy to put that in.

    [The referenced fact sheet was not submitted at time of 
print.]
    [The referenced statements of Susan Crockford and Matthew 
Cronin follows:]

    Statement of Susan J. Crockford, Ph.D., Evolutionary Biologist/
                            Archaeozoologist

    What we know about polar bears is fundamentally incomplete. 
The nature of the beast and the habitat in which it lives 
combine to make the kind of scientific study that is routinely 
applied to other species virtually impossible. There is a 
profound uncertainty in polar bear evolutionary history, 
population numbers (both past and current), and details 
regarding most life history features, not to mention the 
uncertainties surrounding past, present and future conditions 
of its habitat. We also know very little about its primary 
prey, the ringed seal. In my opinion, these uncertainties are 
not adequately acknowledged in the hypothesis currently being 
used to predict a grim future for polar bear populations over 
the next few decades. I contend that we do not know nearly 
enough about polar bears or their environment to predict, with 
any degree of certainty, precisely how they will respond to a 
few degrees of warming.
    What we do know, with absolute certainty, is that about 
10,000 years ago the polar bear survived a period of 
significant warming that lasted about 2,000 years. During that 
time, temperatures in Arctic regions rose to at least 2.50C 
warmer than today and sea ice above western North America 
retreated much further in summer than it has even in the last 
few years. There is no evidence to suggest that sea ice 
disappeared entirely during this extended warm period or that 
polar bears disappeared; none of the ice-dependent prey species 
of polar bears, including ringed and bearded seals, disappeared 
either. Present numbers of polar bears are hard proof that the 
population which lived 8,000 years ago did not drop to 
catastrophic levels: indeed, the archaeological record of 
prehistoric peoples of the Arctic tells us that for the last 
1,000 years at least, and probably much longer, polar bears, 
ringed seals and bearded seals were as well distributed across 
the North American arctic as they are today.

Statement of Matthew A. Cronin, Ph.D., Professor of Animal Genetics at 
                  the University of Alaska, Fairbanks

    1. It is critical to separate science and management/
policy. Science can tell us the status of wildlife populations, 
like polar bears, and make inference regarding the causes of 
impacts and predictions of change. The science presented on 
both sides of the polar bear issue is generally valid. The 
information presented by the field-experienced biologists in 
Alaska and Canada should be given special consideration because 
of their first-hand knowledge. This applies to all experienced 
biologists whether they agree or disagree with an ESA listing. 
However, science does not dictate policy. Science can help 
achieve a given policy but does not decide what the policy 
should be. Our elected representatives do.

    2. Don't discredit scientists because of their funding 
source or because their interpretation of data doesn't agree 
with yours. This is prejudice. Be fair and judge science based 
on its merit. Blind acceptance or rejection is not acceptable 
in science.
    3. The polar bear ESA listing is based on prediction, not 
the current status of the species worldwide. It is also based 
on apparent impacts to a limited number of populations. The 
science documenting population status, potential causative 
factors, and predicted future status has been done by qualified 
scientists and has credibility. So does work presenting 
alternatives.
    4. It is critical to decide if the ESA is appropriate for a 
threat based on predictive models. Polar bears will be 
threatened with extinction if the climate, sea ice, and 
population model predictions are realized. The model results 
are legitimate predictions, but as predictions they should be 
considered hypotheses in need of testing with data in the 
future.
    5. My opinion is that it is not appropriate to base an ESA 
decision on predictions. I would reserve the use of ESA to 
cases where threatened or endangered status is verified. If 
prediction is allowed as a standard for ESA, the number of 
species subject to ESA regulation will be limitless. Our entire 
natural resource industry and government management system will 
be overwhelmed with legal and regulatory burdens instead of 
focusing efforts on practical management in the field. Consider 
the extensive use of the ESA for groups that are not even 
species. Subspecies and populations (which are scientifically 
subjective designations) comprise more than 70 percent of the 
mammals and more than 50 percent of the birds listed in the 
U.S. Expanding the ESA to include populations that might be 
endangered in the future seems like a additional expansion 
beyond the intent and jurisdiction of the ESA.
    6. The problem of human caused global warming should be 
explicitly dealt with as a specific issue. Use of the ESA for 
one species is not the proper way to deal with such a problem.
    7. Please consider whether the polar bear ESA listing 
process has complied with Executive Order 13211 of 18 May 2001, 
which requires agencies to prepare ``Statements of Energy 
Effects'' for Federal actions.
    8. Please seriously consider the proper role of the Federal 
Government as defined in the U.S. Constitution:

    ``The powers not delegated to the United States by the 
Constitution, nor prohibited by it to the States, are reserved 
to the States respectively, or to the people.'' (10th Amendment 
to the U.S. Constitution).
    I believe that wildlife management is the role of states, 
not the Federal Government. I believe use of the InterState 
Commerce Clause of the Constitution to justify the ESA is 
contrived. Regardless, polar bears occur in only one State 
(Alaska) so this justification is not relevant in the case at 
hand. Dealing with global climate change directly is 
appropriate for the Federal Government. ESA listing of 
individual species is a distraction from this critical issue.
    Thank you for your consideration.

    Senator Inhofe. The fact is that the polar bear is simply a 
pawn in a much bigger game of chess. Listing the polar bear as 
a threatened species is not about protecting the bear, but 
about using the ESA to achieve global warming policy that 
special interest groups cannot otherwise achieve through the 
legislative process. These groups have made their agenda clear 
in comments filed with the Fish and Wildlife Service. 
Greenpeace and the Center for Biological Diversity urged the 
Service to force greenhouse gas-emitting projects, even those 
not in Alaska, to account for potential effects on the bear 
before they can go forward.
    They wrote, ``It is simply not possible to fully discuss 
the threat to the polar bear from global warming without 
regulatory mechanism to address greenhouse gas emissions.'' But 
the people who will suffer first under the ESA listing are the 
local indigenous people of Alaska and Canada. For example, 
Alaska's shipping and highway construction and fishing 
activities will have to be weighed against the bear.
    Furthermore, the decision to list the polar bear would 
irreparably damage a culture. On January 14th, two groups 
representing the Canadian Inuit people asserted that 
``Environmental groups are using the polar bear for political 
reasons against the Bush administration over greenhouse gas 
emissions.'' That was a quote. According to the president, Mary 
Simon of ITK in Canada, ``The polar bear is a very important 
subsistence, economic, cultural, conservation, management and 
rights concern. It is a complex, multi-level concern. But it 
seems the media, environmental groups and the public are 
looking at this in overly simplistic black and white terms.''
    I would like to enter a statement into the record and I 
look forward to the testimony of Richard Glenn, an Inupiaq 
Eskimo Naive from Alaska, who is a sea ice geologist and a 
subsistence hunter.
    The bear is also being used as a tool to stop or slow 
natural resource development in Alaska. Last week of the House 
side, witnesses supporting the listing of the polar bear stated 
that no oil and gas leases should be allowed until the bear is 
listed, its critical habitat designated and a recovery plan put 
in place. As we know, that could take, judging from the past, a 
long, long time. We have species that have been on the ESA list 
for decades and still don't have a recovery plan.
    Oil and gas--this is very significant--oil and gas 
exploration in Alaska accounts for 85 percent of the State's 
revenue and 25 percent of the Nation's domestic oil production. 
The price of crude oil is nearly $100 a barrel. Eliminating a 
quarter the U.S. production could be just absolutely 
devastating. I would have to ask the question of anyone who is 
testifying or anyone on this panel, are we concerned at all 
about the price of fuel, about the energy crisis we are under 
and about the possibility of eliminating 25 percent of our 
domestic production?
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Good morning. Much has been said about the polar bear, the 
threats it allegedly faces and what should be done about it. In 
2006, the United States Fish and Wildlife Service, under force 
of litigation, proposed to list the polar bear as a threatened 
species under the Endangered Species Act based on concerns over 
retreating Arctic sea ice.
    The Service asserts that the reason for a decline in one or 
two bear populations is climate change. To make that assertion, 
they rely on hypothetical computer models showing massive loss 
of ice, including a recent US Geological Survey modeling 
predicting that shrinking sea ice could eliminate 2/3 of the 
world's polar bears by 2050.
    This is a classic case of reality versus unproven computer 
models. I look forward to the testimony of Scott Armstrong, an 
Ivy League professor and the nation's leading expert in 
forecasting methodology, who, along with an arctic climate 
change expert, authored a paper that challenges the USGS 
modeling. The decision on whether or not to list the bear rests 
entirely on computer models. If those models are invalid, then 
any decision based on them is not justifiable.
    Ironically, physical observation of the bear tells a much 
different story. The Fish and Wildlife Service estimates that 
there are currently 20,000 to 25,000 polar bears. In the 1950's 
and 1960's, estimates were as low as 5,000-10,000 bears. 
Canadian biologist Dr. Mitchell Taylor, the director of 
wildlife research with the Arctic government of Nunavut, 
dismisses these fears with evidence based data on polar bear 
populations in Canada , where 2/3 of the world's bears reside. 
``Of the 13 populations of polar bears in Canada , 11 are 
stable or increasing in number. They are not going extinct, or 
even appear to be affected at present.''
    Just last month, researchers discovered an ancient polar 
bear jaw that dates back more than 100,000 years, to a time far 
warmer than the present. One award-winning geologist and 
professor from the University of Iceland said about the 
discovery ``that despite the on-going warming in the Arctic 
today, maybe we don't have to be quite so worried about the 
polar bear.'' I would like to enter into the record a fact 
sheet I prepared with statements from biologists and wildlife 
scientists who have taken issue with the predictions of the 
demise of the polar bear. I would also like to put in the 
record separate statements from Dr. Susan Crockford a Canadian 
Evolutionary Biologist and Dr. Matthew Cronin a Professor of 
Animal Genetics at the University of Alaska Fairbanks .
    The fact is that the polar bear is simply a pawn in a much 
bigger game of chess. Listing the bear as a threatened species 
is not about protecting the bear but about using the ESA to 
achieve global warming policy that special interest groups 
cannot otherwise achieve through the legislative process. These 
groups have made their agenda clear. In comments filed with the 
Fish and Wildlife Service, Greenpeace and the Center for 
Biological Diversity urged the Service to force greenhouse-gas-
emitting projects, even those not in Alaska , to account for 
potential affects on the bear before they can go forward. They 
wrote, ``It is simply not possible to fully discuss the threat 
to the polar bear from global warming without regulatory 
mechanisms to address greenhouse gas emissions.''
    But the people who will suffer first under an ESA listing 
are the local, indigenous people in Alaska and Canada . For 
example, Alaska 's shipping, highway construction and fishing 
activities will have to be weighed against the bear. 
Furthermore, the decision to list the polar would irreparably 
damage a culture. On January 14, two groups representing 
Canadian Inuit people asserted that environmental groups are 
``using the Polar Bear for political reasons against the Bush 
administration over greenhouse gas emissions.'' According to 
President Mary Simon of ITK in Canada , ``The Polar Bear is a 
very important subsistence, economic, cultural, conservation, 
management, and rights concern. It's a complex and multilevel 
concern. But it seems the media, environmental groups, and the 
public are looking at this in overly simplistic black and white 
terms.'' I would like to enter the statement into the record 
and I look forward to the testimony of Richard Glenn, an 
Inupiaq Eskimo native from Alaska , who is a sea ice geologist 
and a subsistence hunter.
    The bear is also being used as a tool to stop or slow 
natural resource development in Alaska . Last week, on the 
House side, witnesses supporting the listing of the polar bear 
stated that no oil and gas leases should be allowed until the 
bear is listed, its critical habitat designated and a recovery 
plan put in place. That could be a very long time. We have 
species that have been on the ESA list for decades and still 
don't have a recovery plan. Oil and gas exploration in Alaska 
accounts for 85 percent of the state's revenue and 25 percent 
of the nation's domestic oil production. The price of crude oil 
is nearing $100 a barrel. Eliminating a quarter of the US oil 
production will make us more dependent on foreign sources of 
oil, not less.
    The bottom line is that the attempt to list the polar bear 
under the ESA is not based on any current polar bear decline 
but is founded entirely on computer climate models and 
predictions that are fraught with uncertainties. Unfortunately, 
the bear is being used as a back door to climate change 
regulation. I look forward to hearing from our witnesses.
    Senator Boxer. Thanks, Senator.
    The early bird rule applies, so we will go to Senator 
Lautenberg and then Senator Lieberman. Senator Lautenberg?

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U. S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman. I really 
appreciate the fact that you do take the leadership role in 
viewing and analyzing questions that are before us about in 
some ways the almost very existence of the world as we know it.
    When I listen to our friend from Oklahoma, who is the 
skeptic here, about the things that we see in front of us, 
about computer modeling, I happen to have come out of the 
computer business, I spent only 30 years of my life there. But 
computer modeling is what we do when we send people up in space 
shuttles. We do a lot of computer modeling to see whether or 
not we are prepared to do that. We use it certainly in the 
military. We certainly use computer modeling in determining 
what kind of medication is going to be effective against 
various of the diseases and illnesses that man sees.
    So with all due respect, Senator Inhofe's skepticism about 
the use of computer modeling certainly presents, as far as I am 
concerned, a serious challenge to what the world is right in 
front of our eyes.
    We see the Bush administration valuing oil over our 
environmental protections for future generations. And when we 
hear about the price of oil and we think about what is causing 
oil prices to behave as they do, well, it is our friends in 
Saudi Arabia and places like that who are engaged in a 
conspiracy to raise prices to whatever they can extract from a 
dependent world. And the difference is not in Alaska. That is 
only a very small part of the whole thing. We in this Committee 
saw first-hand on our visit to Greenland global warming already 
significantly damaging our natural world. We saw green where 
there was recently complete ice coverage. We are seeing that 
melting trend repeat itself across the world.
    I took the trouble to go to Antarctica and the South Pole 
half a dozen years ago and meet with the National Science 
Foundation and see what they were able to develop in terms of 
warnings about ice melt. Now we see that pace accelerating. The 
Arctic Ocean, for example, could be devoid of ice in the 
summertime by 2040, according to the latest science. Since 
polar bears are totally dependent on sea ice to live, hunt, 
breed, two-thirds of the world's polar bears are on a path 
toward extinction. It is a sign of things to come. It is not 
only a precious species, but a harbinger of what the future 
might look like. According to the U.S. Geological Survey, as 
the sea ice goes, so goes the polar bear.
    As most people in the room know, polar bears have been in 
trouble for a long time. Between 1981 and 2004, the average 
female polar bear's weight dropped from 650 pounds to 510 
pounds. That is a substantial difference in the ability of the 
species to adjust. During a similar period, an average polar 
bear litter shrunk by 15 percent.
    Science alone makes it clear that the polar bear should be 
considered a threatened species and should be protected. But 
our concerns are not limited to the polar bear. It is one of 
the more visible examples of the toll that global warming is 
taking on our whole ecosystem. Our world is changing. But 
instead of listening to science, the Bush administration is 
more concerned with satisfying the oil industry.
    This month, despite the science, the Administration 
announced that it needed more time to determine whether or not 
to protect the dying polar bear. At the same time, the 
Administration announced that it would allow companies to drill 
in the same habitat where polar bears currently live. And I 
find it hard to believe that delaying the polar bear decision 
so that it occurs after the oil drilling was not simply a 
coincidence. To me there is no clearer example than this of the 
Administration valuing oil over existence, over life. Science 
has proven that the polar bear is threatened, and instead of 
acting swiftly to protect it, the Administration is promoting 
the interests of the oil companies.
    Madam Chairman, it is wrong. Global warming is the biggest 
environmental threat our world and human existence faces. It 
threatens our food supply, the air we breathe, and the well-
being of future generations. If we continue down this path as 
we are, we endanger the existence of countless species and 
ignore our planet's cry for help. When we saw here an example 
of the change in the ecology here in the neighborhood, in the 
Potomac River, when male fish carried female eggs, doesn't that 
tell us all something, that this world is on a path toward, if 
not reshaping, perhaps lack of existence? We dare not wait any 
longer for our children and grandchildren and potentially 
mankind. We must take bold and aggressive action to reduce 
greenhouse gases. I am glad that this Committee and our 
colleagues have taken this step to do just that.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Before I call on Senator Barrasso, then we will go to 
Senator Lieberman and Senator Craig, I wanted to place a couple 
of things in the record to compete with what Senator Inhofe put 
in the record. A 2007 USGS study, scientists conclude that by 
2050, two-thirds of all polar bears could be lost if we don't 
take protective action. Then the World Conservation Union 
report of 2006, some of the premier scientists in the world and 
experts from this organization say the polar bear is 
threatened. These are peer-reviewed articles, so they will 
appear in the record following the articles put in by my 
esteemed Ranking Member.
    [The referenced World Conservation Union report of 2006 was 
not submitted at time of print.]
    [The referenced 2007 USGS study follows.]

    [GRAPHIC] [TIFF OMITTED] T2737.245
    
    [GRAPHIC] [TIFF OMITTED] T2737.246
    
    [GRAPHIC] [TIFF OMITTED] T2737.247
    
    [GRAPHIC] [TIFF OMITTED] T2737.248
    
    [GRAPHIC] [TIFF OMITTED] T2737.249
    
    [GRAPHIC] [TIFF OMITTED] T2737.250
    
    [GRAPHIC] [TIFF OMITTED] T2737.251
    
    [GRAPHIC] [TIFF OMITTED] T2737.252
    
    [GRAPHIC] [TIFF OMITTED] T2737.253
    
    [GRAPHIC] [TIFF OMITTED] T2737.254
    
    [GRAPHIC] [TIFF OMITTED] T2737.255
    
    [GRAPHIC] [TIFF OMITTED] T2737.256
    
    [GRAPHIC] [TIFF OMITTED] T2737.257
    
    [GRAPHIC] [TIFF OMITTED] T2737.258
    
    [GRAPHIC] [TIFF OMITTED] T2737.259
    
    [GRAPHIC] [TIFF OMITTED] T2737.260
    
    [GRAPHIC] [TIFF OMITTED] T2737.261
    
    [GRAPHIC] [TIFF OMITTED] T2737.262
    
    [GRAPHIC] [TIFF OMITTED] T2737.263
    
    [GRAPHIC] [TIFF OMITTED] T2737.264
    
    [GRAPHIC] [TIFF OMITTED] T2737.265
    
    [GRAPHIC] [TIFF OMITTED] T2737.266
    
    [GRAPHIC] [TIFF OMITTED] T2737.267
    
    [GRAPHIC] [TIFF OMITTED] T2737.268
    
    [GRAPHIC] [TIFF OMITTED] T2737.269
    
    [GRAPHIC] [TIFF OMITTED] T2737.270
    
    [GRAPHIC] [TIFF OMITTED] T2737.271
    
    [GRAPHIC] [TIFF OMITTED] T2737.272
    
    [GRAPHIC] [TIFF OMITTED] T2737.273
    
    [GRAPHIC] [TIFF OMITTED] T2737.274
    
    [GRAPHIC] [TIFF OMITTED] T2737.275
    
    [GRAPHIC] [TIFF OMITTED] T2737.276
    
    [GRAPHIC] [TIFF OMITTED] T2737.277
    
    [GRAPHIC] [TIFF OMITTED] T2737.278
    
    [GRAPHIC] [TIFF OMITTED] T2737.279
    
    [GRAPHIC] [TIFF OMITTED] T2737.280
    
    [GRAPHIC] [TIFF OMITTED] T2737.281
    
    [GRAPHIC] [TIFF OMITTED] T2737.282
    
    [GRAPHIC] [TIFF OMITTED] T2737.283
    
    [GRAPHIC] [TIFF OMITTED] T2737.284
    
    [GRAPHIC] [TIFF OMITTED] T2737.285
    
    [GRAPHIC] [TIFF OMITTED] T2737.286
    
    [GRAPHIC] [TIFF OMITTED] T2737.287
    
    [GRAPHIC] [TIFF OMITTED] T2737.288
    
    [GRAPHIC] [TIFF OMITTED] T2737.289
    
    [GRAPHIC] [TIFF OMITTED] T2737.290
    
    [GRAPHIC] [TIFF OMITTED] T2737.291
    
    [GRAPHIC] [TIFF OMITTED] T2737.292
    
    [GRAPHIC] [TIFF OMITTED] T2737.293
    
    [GRAPHIC] [TIFF OMITTED] T2737.294
    
    [GRAPHIC] [TIFF OMITTED] T2737.295
    
    [GRAPHIC] [TIFF OMITTED] T2737.296
    
    [GRAPHIC] [TIFF OMITTED] T2737.297
    
    [GRAPHIC] [TIFF OMITTED] T2737.298
    
    [GRAPHIC] [TIFF OMITTED] T2737.299
    
    [GRAPHIC] [TIFF OMITTED] T2737.300
    
    [GRAPHIC] [TIFF OMITTED] T2737.301
    
    [GRAPHIC] [TIFF OMITTED] T2737.302
    
    [GRAPHIC] [TIFF OMITTED] T2737.303
    
    [GRAPHIC] [TIFF OMITTED] T2737.304
    
    [GRAPHIC] [TIFF OMITTED] T2737.305
    
    [GRAPHIC] [TIFF OMITTED] T2737.306
    
    [GRAPHIC] [TIFF OMITTED] T2737.307
    
    [GRAPHIC] [TIFF OMITTED] T2737.308
    
    [GRAPHIC] [TIFF OMITTED] T2737.309
    
    [GRAPHIC] [TIFF OMITTED] T2737.310
    
    [GRAPHIC] [TIFF OMITTED] T2737.311
    
    [GRAPHIC] [TIFF OMITTED] T2737.312
    
    [GRAPHIC] [TIFF OMITTED] T2737.313
    
    [GRAPHIC] [TIFF OMITTED] T2737.314
    
    [GRAPHIC] [TIFF OMITTED] T2737.315
    
    [GRAPHIC] [TIFF OMITTED] T2737.316
    
    [GRAPHIC] [TIFF OMITTED] T2737.317
    
    [GRAPHIC] [TIFF OMITTED] T2737.318
    
    [GRAPHIC] [TIFF OMITTED] T2737.319
    
    [GRAPHIC] [TIFF OMITTED] T2737.320
    
    [GRAPHIC] [TIFF OMITTED] T2737.321
    
    [GRAPHIC] [TIFF OMITTED] T2737.322
    
    [GRAPHIC] [TIFF OMITTED] T2737.323
    
    [GRAPHIC] [TIFF OMITTED] T2737.324
    
    [GRAPHIC] [TIFF OMITTED] T2737.325
    
    [GRAPHIC] [TIFF OMITTED] T2737.326
    
    [GRAPHIC] [TIFF OMITTED] T2737.327
    
    [GRAPHIC] [TIFF OMITTED] T2737.328
    
    [GRAPHIC] [TIFF OMITTED] T2737.329
    
    [GRAPHIC] [TIFF OMITTED] T2737.330
    
    [GRAPHIC] [TIFF OMITTED] T2737.331
    
    [GRAPHIC] [TIFF OMITTED] T2737.332
    
    [GRAPHIC] [TIFF OMITTED] T2737.333
    
    [GRAPHIC] [TIFF OMITTED] T2737.334
    
    [GRAPHIC] [TIFF OMITTED] T2737.335
    
    [GRAPHIC] [TIFF OMITTED] T2737.336
    
    [GRAPHIC] [TIFF OMITTED] T2737.337
    
    [GRAPHIC] [TIFF OMITTED] T2737.338
    
    [GRAPHIC] [TIFF OMITTED] T2737.339
    
    [GRAPHIC] [TIFF OMITTED] T2737.340
    
    [GRAPHIC] [TIFF OMITTED] T2737.341
    
    [GRAPHIC] [TIFF OMITTED] T2737.342
    
    [GRAPHIC] [TIFF OMITTED] T2737.343
    
    [GRAPHIC] [TIFF OMITTED] T2737.344
    
    [GRAPHIC] [TIFF OMITTED] T2737.345
    
    [GRAPHIC] [TIFF OMITTED] T2737.346
    
    [GRAPHIC] [TIFF OMITTED] T2737.347
    
    [GRAPHIC] [TIFF OMITTED] T2737.348
    
    [GRAPHIC] [TIFF OMITTED] T2737.349
    
    [GRAPHIC] [TIFF OMITTED] T2737.350
    
    [GRAPHIC] [TIFF OMITTED] T2737.351
    
    [GRAPHIC] [TIFF OMITTED] T2737.352
    
    [GRAPHIC] [TIFF OMITTED] T2737.353
    
    [GRAPHIC] [TIFF OMITTED] T2737.354
    
    [GRAPHIC] [TIFF OMITTED] T2737.355
    
    [GRAPHIC] [TIFF OMITTED] T2737.356
    
    [GRAPHIC] [TIFF OMITTED] T2737.357
    
    [GRAPHIC] [TIFF OMITTED] T2737.358
    
    [GRAPHIC] [TIFF OMITTED] T2737.359
    
    [GRAPHIC] [TIFF OMITTED] T2737.360
    
    [GRAPHIC] [TIFF OMITTED] T2737.361
    
    [GRAPHIC] [TIFF OMITTED] T2737.362
    
    [GRAPHIC] [TIFF OMITTED] T2737.363
    
    [GRAPHIC] [TIFF OMITTED] T2737.364
    
    [GRAPHIC] [TIFF OMITTED] T2737.365
    
    [GRAPHIC] [TIFF OMITTED] T2737.366
    
    [GRAPHIC] [TIFF OMITTED] T2737.367
    
    [GRAPHIC] [TIFF OMITTED] T2737.368
    
    [GRAPHIC] [TIFF OMITTED] T2737.369
    
    [GRAPHIC] [TIFF OMITTED] T2737.370
    
    [GRAPHIC] [TIFF OMITTED] T2737.371
    
    [GRAPHIC] [TIFF OMITTED] T2737.372
    
    [GRAPHIC] [TIFF OMITTED] T2737.373
    
    [GRAPHIC] [TIFF OMITTED] T2737.374
    
    [GRAPHIC] [TIFF OMITTED] T2737.375
    
           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman. I appreciate 
the opportunity to be here today and I appreciate the witnesses 
coming to testify.
    I am just going to be very brief, if I could. It is just 
that when we last met before Christmas for the markup of the 
Lieberman-Warner bill in that long, marathon session, the final 
amendment, and I think they played that on C-SPAN all over the 
Christmas holidays. One night I went to bed and it was on and I 
woke up and the Committee meeting was still on C-SPAN.
    [Laughter.]
    Senator Barrasso. It was something.
    The final amendment that I offered, and we didn't get into 
a discussion, had to do with if Lieberman-Warner would be tied 
to the Endangered Species Act. I was assured that that was 
nowhere the intention, I believed that. Then I saw an article 
in the Baltimore Sun by the staff attorney at the Center for 
Biological Diversity. And she writes: ``Once protection for the 
polar bear is finalized, Federal agencies and other large 
greenhouse gas emitters will be required by law to ensure that 
the emissions do not jeopardize the species. And the only way 
to avoid jeopardizing the polar bear is to reduce emissions.''
    So I would ask if I could make this article from the 
Baltimore Sun a part of the record, and I look forward to the 
discussion. Thank you.

    [The referenced material was not submitted at time of 
print.]

    Senator Boxer. Sure, and Senator, I just would point out to 
you that that is exactly what the ESA would require, it has 
nothing to do with any other law that we would pass. Unless we 
weaken the ESA, that may well be one of the things that is 
required. But it has nothing to do with Lieberman-Warner.
    Senator Lieberman, I just wanted to point out that you do 
head the subcommittee that has within its jurisdiction the 
protection of wildlife. You have already held hearings on this, 
but I am just thrilled to have you here today.

          OPENING STATEMENT OF HON. JOSEPH LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Madam Chairman.
    Correct, in fact, that marathon that Senator Barrasso, at 
least in the C-SPAN version, slept through, he was wide awake 
when it actually happened, was preceded in the process that led 
to the adoption of the Climate Security Act in December and 
reporting by a majority of members of Committee to the floor 
actually began at a hearing almost a year ago to this day that 
Senator Warner and I convened in our subcommittee on the 
impacts of global warming on wildlife.
    In that hearing, we heard of the ways in which unchecked 
global warming is already harming, and of course in the absence 
of further action, will increasingly harm species and entire 
ecosystems that are integral to our way of life and the well-
being of human societies around the world. And of course, these 
species and ecosystems themselves have an inherent worth, in my 
belief structure, as part of God's creation, so that the impact 
on the well-being of human societies is important. But it is 
important to remember that these species have value within 
themselves. If I might just go on a moment, inspired, which is 
to say that I was raised in a tradition that reminded us that 
in the Bible, in Genesis, God says to Adam and Eve in the 
garden of Eden, from which we were unfortunately banned, that 
they have a responsibility to both work, which is to say enjoy, 
reap the benefits of, but also to guard and protect the garden 
and all that is in it, the implication being for future 
generations.
    We hard in that hearing nearly a year ago quite a 
remarkable accumulation of testimony. In that hearing, the Fish 
and Wildlife Service Director, Mr. Hall, who we are privileged 
to have with us today, identified a warming climate and the 
resulting melting of sea ice as the primary reason that polar 
bears were threatened as a species. So we have both the 
indication of a threat to the species, but also if you will, 
the polar bear may be to global warming what the canary in the 
coal mine has been to danger for coal miners in the mine.
    I would say parenthetically that we also had riveting 
testimony that day from a trout fisherman from Montana who 
testified to the fact that the warming of the planet has begun 
to warm the streams and waters in which the trout live, and it 
has made them sluggish, because they are--forgive me for what 
may be an overstatement, but I think it is not scientifically--
they are essentially suffocating as a result of the warming of 
the water.
    Dr. Hall, 2 weeks ago you testified before a House 
committee that ``We need to do something about climate change 
starting yesterday, and it needs to be a serious effort to try 
and control greenhouse gases.'' I want to thank you now for 
that clear statement about the urgent need to take substantive 
action to address climate change, and I hope it resonates here 
in the Senate.
    Many of us here on this Committee, obviously, and beyond, 
want to see the Service expeditiously issue the conclusion that 
we personally believe science and the Endangered Species Act 
dictate with regard to the polar bear. Studies commissioned by 
Interior Secretary Kempthorne from the USGS concluded, as 
Chairman Boxer said a moment ago, that two-thirds of the 
world's polar bear population could be lost by the middle of 
this century. These studies go on to State that that may in 
fact be a conservative prediction as we are watching Arctic sea 
ice now disappear at a faster rate than the computer models 
have projected.
    I think we are also, many of us, concerned by the last-
minute delay in taking final action on the listing decision. 
And some, Director Hall, and I hope you will testify to this, 
are troubled by the coincidence between that delay and the sale 
of some drilling leases that would affect the polar bear. I 
think this is an opportunity both for you, Mr. Director, to 
clarify those matters, and for us to ask you further questions.
    I thank you for your presence here, and again, Madam 
Chairman, I thank you for convening this hearing.
    [The prepared statement of Senator Lieberman follows:]

       Statement of Hon. Joseph Lieberman, U.S. Senator from the 
                          State of Connecticut

    Thank you, Madame Chairman.
    Many here will recall that the first hearing Senator Warner 
and I held in our subcommittee last February was on the impacts 
of global warming on wildlife. In that hearing, we heard of the 
ways in which unchecked global warming is harming and, in the 
absence of action, will increasingly harm species and entire 
ecosystems that are integral to our way of life and the 
wellbeing of human societies around the world. We heard in that 
hearing, nearly a year ago today, that Fish and Wildlife 
Service Director Hall had identified a warming climate, and the 
resulting melting of sea ice, as the primary reason that polar 
bears were threatened as a species.
    I am glad that the process that in some sense began with 
that February hearing culminated last month in our committee 
reporting the Lieberman-Warner Climate Security Act to the full 
Senate. I am proud that this committee showed the leadership 
take the first step toward protecting all wildlife and 
ecosystems from the damaging effects of catastrophic climate 
change.
    Director Hall, 2 weeks ago, you testified in the House that 
``We need to do something about climate change starting 
yesterday, and it needs to be a serious effort to try and 
control greenhouse gases.''
    I want to express my deep appreciation to you now for that 
clear statement about the urgent need to take substantive 
action to address climate change. I hope it resonates here in 
the Senate.
    We are here today in part because many of us up here want 
to see the Service expeditiously issue the conclusion that 
science and the Endangered Species Act clearly dictate with 
regard to the polar bear. Studies commissioned by Interior 
Secretary Kempthorne from the USGS concluded that two-thirds of 
the world's polar bear population could be lost by the middle 
of this century. They go on to State that this may be a 
conservative prediction as we are watching Arctic sea ice 
disappear at a faster rate than models had predicted.
    And, in part, we are here because many of us are concerned 
by the last-minute delay in taking final action on the listing 
decision, and the troubling coincidence between that delay and 
the sale of some drilling leases that would affect the polar 
bear. I look forward to hearing Director Hall's testimony, and 
to asking him some questions.
    Thank you, Madame Chairman.
    Senator Boxer. Thank you so much.
    Senator Craig.

            OPENING STATEMENT OF HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Madam Chair, I will be brief.
    I am just beginning to acquaint myself with this issue, and 
I have not read all of these studies, to be thorough in my 
examination of it. I am looking at some obvious things. And one 
of the trend lines that I watch, living in the Pacific 
Northwest, relates to the Marine Mammals Protection Act that we 
passed in 1972 and the consequence of that. In my home area, 
the consequence, of course, of seals, sea lion populations 
almost exploding up and down the Pacific Coast have resulted in 
where we now have seals and sea lions contributing 
substantially to the depletion of salmon runs, or the damage of 
young fish and all of that, because it is a natural prey base.
    It is also true that during that time we did something 
else. We reduced the human take of the polar bear, and numbers 
within polar bear populations have moved up substantially from 
1965, a guesstimated 8,000 to 10,000, to today 20,000 to 25,000 
polar bears. So the polar bear itself, at least in the current 
environment, is, population-wise, if these figures are 
accurate, doing quite well in part because of an action this 
Congress took some time ago.
    I also understand the climate change movement, the emotion 
involved and all that. I know that it is very difficult to 
predict the future and therefore to extrapolate out of it 
therefore what will become of these populations. I also have 
watched over the years as different organizations have used the 
Endangered Species as a wedge or a sledgehammer to change and 
modify human action and/or activity within certain areas. That 
is a given. If you are going to do something within an area 
that is relatively pristine, you will probably get, somebody 
will find a species to file to stop you. That is a new tool in 
the tool kit of human interest that is a part of the public 
policy we have here.
    So I am here to listen and, Director, I am glad you are 
with us to see where we are in all of this. I hope, as a 
government, we don't rush to judgment. At the same time, I 
think we are moving expeditiously now and appropriately in the 
climate change area. And history will only say, was it us or 
was it mother nature? Because that question still is on the 
books.
    Thank you.
    Senator Boxer. Senator, thank you very much.
    I wanted to point out that you were right about the 
numbers, because we used to allow hunting of polar bears. And 
therefore the----
    Senator Craig. Yes, the take was down substantially.
    Senator Boxer. Dramatically down. And then when we said 
only subsistence, that brought them up. What we are talking 
about today is not hunting, we are talking about the natural 
environment.
    Senator Craig. Well, we also did something else, Madam 
Chair, with the Marine Mammals Act. We increased, we populated 
their prey base substantially more with seals and sea lions. 
Those things that the polar bear hunts, we increased those 
numbers. So obviously their food base was up, their take was 
down. Mother nature did the math. Thank you.
    Senator Boxer. Well, thank you. I think we are in agreement 
as to the history, which is very important. Because today we 
are looking at this other threat, not the hunting threat, but 
the habitat threat.
    So I think everybody has spoken, so we will now go to you, 
Mr. Hall. Welcome, and we look forward to your remarks.

  STATEMENT OF H. DALE HALL, DIRECTOR, U.S. FISH AND WILDLIFE 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Chairwoman Boxer, and Ranking Member 
Inhofe, and good friend, and other members of the Committee who 
are also friends.
    It is really a pleasure to be here with you today and I ask 
that my full written statement be entered into the record.
    Senator Boxer. Without objection, so ordered.
    Mr. Hall. As you are aware, the Service proposed to list 
the polar bear as a threatened species throughout its range on 
January 9th, 2007. This proposal was based upon scientific 
review which indicated that the polar bear populations may be 
threatened by receding sea ice. Sea ice is used by polar bears 
for platforms for activities essential to their life functions, 
but especially hunting for ice seals, their main prey.
    At the time Secretary Kempthorne announced the proposal, he 
had directed us to work with USGS, the public, pertinent 
sectors of the scientific community to broaden understanding of 
what factors affect the species and to gather additional 
information to form the final listing decision basis. To assist 
in that effort, we opened a 3-month public comment period and 
held public hearings in Anchorage and Barrow, Alaska, and in 
Washington, DC. We then hosted a meeting in June 2007 of all 
the range states around the circumpolar, with official 
representatives from all the countries. The meeting provided a 
forum for the exchange of scientific, management and technical 
information among all the range nations.
    Then in September 2007, USGS scientists supplied nine new 
research reports to the Service, updating population 
information on polar bears in the southern Beaufort Sea of 
Alaska, and provided new information on the status of two other 
polar bear populations as well. USGS studies provided 
additional data on Arctic climate and sea ice trends and 
projected effects to polar bear numbers throughout the species 
range. As a result of the new USGS research findings, we 
reopened the comment period and later extended a second comment 
period to allow the public time to review and respond to this 
USGS science.
    We expect to provide a final recommendation to the 
Secretary and to finalize a decision on the proposal to list 
the polar bear as a threatened species within the very near 
future.
    I would like to discuss current, ongoing efforts to 
conserve the polar bear as well. While much attention has been 
focused on the proposed listing of the polar as threatened 
under the ESA, it is important to realize that the polar bear 
is currently protected under a number of statutes, treaties and 
agreements, including the Marine Mammal Protection Act, CITES, 
or the Convention on International Trade in Endangered Species 
of Wild Fauna and Flora, under the Endangered Species Act, the 
1973 agreement between all five range states, and the Inupiat-
Inuvialuit Agreement. These protections, which address take, 
trade and management, remain in place regardless of the final 
listing decision.
    In addition, the Service has been and is continuing to work 
a wide range of partners, including the State of Alaska, Alaska 
Natives, the oil and gas industry and other Federal agencies, 
scientific organizations, foreign countries, all within the 
range of the polar bear, and the sporting and conservation 
communities on a number of efforts to conserve polar bears. The 
Service and its partners are working on coordinated efforts to 
conserve the bear under existing authorities, even if we do not 
move forward with listing. But if we do move forward with the 
listing, it would be in addition to these existing authorities.
    This broad, landscape level effort focuses on polar bear 
management coordination, polar bear conservation planning, 
range-wide implementation of the U.S.-Russia bilateral 
agreement, and research and monitoring. The polar bear is a 
messenger of the changing conditions in the Arctic. If we 
listen and work together, we can help enhance the survival of 
the polar bear for the long term.
    I will also mention today, quickly, that I am sending out 
today an employee's scientific code of conduct. This sets out 
standards that includes me and the Fish and Wildlife Service to 
follow sound scientific codes of conduct as we approach 
scientific information. That will be the basis, the science in 
front of us and our code of ethics to follow that science will 
be the basis for the decision.
    I thank you for allowing me to be here today and I would be 
glad to answer any questions that you might have.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.001
    
    [GRAPHIC] [TIFF OMITTED] T2737.002
    
    [GRAPHIC] [TIFF OMITTED] T2737.003
    
    [GRAPHIC] [TIFF OMITTED] T2737.004
    
    [GRAPHIC] [TIFF OMITTED] T2737.005
    
    Senator Boxer. Thank you very much, Director Hall.
    Did your staff present a recommendation to you on the 
listing of the polar bear?
    Mr. Hall. We have received the first draft and now the 
second draft that we are working on that includes the staff's 
recommendations.
    Senator Boxer. So you have received the staff 
recommendations?
    Mr. Hall. Yes, ma'am.
    Senator Boxer. OK, then why haven't you acted?
    Mr. Hall. Because I am working with staff to get the 
document in the proper mode, so that it clearly explains all of 
the questions that we received. We had 670,000 comments, both 
pro and con, people that argued for and against.
    Senator Boxer. Right.
    Mr. Hall. And it is not just making the decision. It is 
being able to have the Congress and the public understand the 
decision----
    Senator Boxer. Right, but you do understand that there is a 
timeliness associated with this because of the lease sale, 
right?
    Mr. Hall. Yes, ma'am, I do. And I want to say that this 
delay is my responsibility.
    Senator Boxer. Well, let me just say, I wouldn't want to 
have that responsibility on my shoulders, to think that these 
polar bears could lose a huge among of their population because 
you are delaying. I just want to say this. Look at Mr. Johnson. 
Mr. Johnson of EPA denied a California waiver. He hasn't given 
us one ounce of paperwork to support it. He is working on it 
now.
    The fact is, it is not unprecedented. So it seems like when 
it is a delay, that allows special interests to move forward, 
there is a delay. But when it is the reverse, we don't get the 
paperwork.
    According to Bruce Woods, an agency spokesman in Anchorage, 
Alaska, the completed work on the decision by the polar bear 
scientists in the Alaska field office was sent to headquarters 
December 14th. What was the conclusion of the listing 
recommendation that was transmitted from the Alaska field 
office on December 14th?
    Mr. Hall. Madam Chair, it would be inappropriate for me to 
share recommendations internal until the Secretary has made a 
final decision. Then all of that is part of the public record 
that would be available. But in the internal workings, the 
recommendations is to me, then I put together my recommendation 
for the Secretary and then we move forward from that.
    Senator Boxer. But you do understand the timeliness?
    Mr. Hall. Yes, ma'am, I do.
    Senator Boxer. You do understand that there is a lease 
sale? You do understand that that is going to move forward, and 
you do understand that you are late under the law in this 
decision?
    Mr. Hall. Yes, ma'am, I do.
    Senator Boxer. The Endangered Species Act allows for a 
delay in noticing a listing beyond the 1-year deadline only in 
situations of substantial scientific uncertainty. Am I correct 
that you have not filed a notice with the Federal Register that 
this is the reason for your delay?
    Mr. Hall. That is correct.
    Senator Boxer. What is the reason for your delay?
    Mr. Hall. The reason for the delay really started back when 
we received the USGS reports and we went out for public review. 
I alerted the Department at that time that it was quite 
possible that our staff would not be able to work through all 
of that volume of information and put the packages together to 
get all the information----
    Senator Boxer. So your delay is because there was a lot of 
public comment?
    Mr. Hall. The delay is because of not just the public 
comment. It is the quality of the answer that is important, 
too. We received public comments and we owe those public 
comments the opportunity to really be evaluated and then 
reported back on.
    Senator Boxer. Was there an overwhelming feeling in those 
public comments whether to list or not list?
    Mr. Hall. The public comments are really to ask about the 
science. And there was good support, I don't have a percentage 
breakdown, but the vast majority of the support of the comments 
came in, supported the science that would support a listing.
    Senator Boxer. I understand. So there weren't that many 
diverse views expressed in the public comments? They 
essentially fell under the category of list it because the 
science is on your side to do so?
    Mr. Hall. We did not believe that, referring to your first 
question, we did not believe that there was ample scientific 
disagreement to warrant using that clause of the Act.
    Senator Boxer. But you do understand that what you are 
doing is outside what the law requires you to do. And you do 
understand that there are many people who suspect some kind of 
situation going on here between MMS. Have you been in 
communication with anyone at the White House about the listing 
rule, anyone at all?
    Mr. Hall. No, ma'am.
    Senator Boxer. Has anyone contacted you about the timing of 
your decision from the White House or the Vice President's 
office?
    Mr. Hall. No, ma'am. I notified the Secretary, the 
Secretary notified the White House that we were going to be 
late. And that was the extent of the comments.
    Senator Boxer. Director Hall, is it true that as of today, 
it has been 630 days since Fish and Wildlife Service has listed 
a single species in the U.S. under the Endangered Species Act?
    Mr. Hall. I don't have that number in front of me, so I 
don't know.
    Senator Boxer. That is our understanding. And if that is 
correct, it is the longest delay in the history of the Act. You 
are delaying the listing of the polar bear, saying there is 
more work to do. You have legal obligations to protect 
imperiled natural heritage. So again, I don't quite get it. I 
appreciate your taking blame for the delay. But your answer is 
disturbing. Because while you say you care about the science, 
it looks like there is a lot of science.
    I just put in the record USGS report, peer-reviewed. And as 
a result of your delay, this isn't just, oh, you know, I will 
wait for a sunny day to make my decision. There is going to be 
a drilling in an area where 20 percent of these magnificent 
creatures reside.
    So again, I would hope that you would reconsider this. 
Because everything we do has consequences. And this consequence 
is something that is going to be pretty disastrous for all of 
us.
    Mr. Hall. Please understand, Madam Chair, I do not take 
this lightly. But I am committed to having a quality decision 
out that answers all of the questions. Because this is a very 
high profile decision. And we will move as fast as we possibly 
can. But I don't want to over-push our staff. And that is an 
honest answer.
    Senator Boxer. Can you do this before February 6th?
    Mr. Hall. That is the projected date that--we had a press 
conference and said it would probably take us in the 
neighborhood of an additional 30 days, and we are still pushing 
to make that.
    Senator Boxer. Can you do it by February 6th?
    Mr. Hall. The only answer I can give is that we are pushing 
to try and get there.
    Senator Boxer. Well, I would urge you, because even if you 
have to work overtime, and I will be happy to, if you needed 
some staff assistants who would work, this Committee would help 
you, if you needed just some more hands to do this.
    It would mean a lot to me as Chairman and I know to many of 
my colleagues as well.
    Mr. Hall. Our staff has worked very, very hard.
    Senator Boxer. I understand, and we are willing to give you 
more resources if you need those.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Let me first of all exchange Scriptures with my good 
friend, Senator Lieberman. It is Romans 1:25, ``Who exchanged 
the truth of God for a lie and worshiped the creation rather 
than the Creator.''
    Senator Lieberman. Well, I was about to say amen, brother, 
but I think this may lead to a longer theological discussion.
    [Laughter.]
    Senator Inhofe. I will accept the amen.
    Senator Lieberman. I think we honor the Creator by honoring 
and protecting His creation. But I am glad to be engaged at 
this level of dialog. It is a good one. Good source.
    Senator Inhofe. All right. Administrator Hall, there seems 
to be a lot of concern about the halting of gas production and 
all that. You heard my opening statement.
    In your proposal to list the polar bear, the Fish and 
Wildlife Service found no impact on polar bears, due to oil and 
gas activities. Now, I can remember so well back in the old 
Alaska Pipeline days when they said the effect this was going 
to have on the caribou. It has been my experience, particularly 
in the summer months when I go up there, that the caribou are 
using the pipeline as the only shade around. So would you 
elaborate on why these activities would not affect the polar 
bear, oil and gas production?
    Mr. Hall. In our proposed rule of January 9th, 2007, we go 
through the five-factor analysis. There are five factors in the 
Endangered Species Act that start with habitat and go down to 
other man-made or natural causes. One of those activities that 
we reviewed was oil and gas operation on the North Slope. We 
looked back over 30 years of operation up there. And especially 
since the implementation of the Marine Mammal Protection Act 
regulations, and about 1993, we have been able to document no 
mortality of the polar bears as a result of oil and gas 
operations.
    So our conclusion in that draft was that oil and gas 
operations was not in and of itself a significant factor 
threatening the species.
    Senator Inhofe. That is good. I read that, and it is much 
more. So I would like to ask you to elaborate on that for the 
record and get into some more of the details. That is very 
good, I appreciate it.
    Now, there is a great deal of concern about the 
ramifications of the listing on activities elsewhere in the 
Country. For example, could the emissions of a new power plant 
in my State of Oklahoma, Oklahoma City, contribute to sea ice 
decline in the Arctic and therefore harming the bears' habitat. 
The environmental groups have made it clear that they want to 
force these associations so that they can regulate greenhouse 
gases elsewhere.
    In last week's House hearing, you disputed that. Could you 
kind of walk us through that one?
    Mr. Hall. Thank you, Senator, because this is one of those 
areas that I believe that there is some misunderstanding about 
what the law can and cannot do. When I say the law I mean the 
Endangered Species Act.
    When we talk about consultation between two Federal 
agencies under Section 7, the first question that is asked is, 
and the agency does this, is may this, the proposed action, may 
it affected a listed species. And if the answer is yes, and 
that determination is usually made by the action agency. Then 
the next question that they have to ask is, is it likely to 
adversely affect the species. And if the answer to that 
question is yes, then that leads you into formal consultation, 
as most people understand it.
    The problem that we face, and Madam Chair was correct a 
while ago in saying that if you have the scientific evidence 
then you would have to consult. The issue here, though, for the 
Endangered Species Act, is both in law and in science. In order 
for, and I will go with the law first, both the Supreme Court 
of the United States in the Sweet Home case, and the Ninth 
Circuit flowing that and the Arizona Cattle Growers Association 
case, directed that yes, we may implement take for the 
destruction of habitat. Take means to harm a species, and we 
have to authorize that.
    But in doing so, we must make, as Justice O'Connor called 
it, the proximal cause case. We must be able to say that this 
action leads to this take. And but for that action, take would 
not have occurred. That is a burden that is on us in regulating 
under the Endangered Species Act. And the Ninth Circuit told us 
that we could not speculate, that we clearly had to have that 
chain of evidence that led from this particular action to this 
particular take.
    Now, with that said about the law side, the science today 
as we know it would not allow us, it doesn't allow us to 
segregate out specific point source emissions of greenhouse 
gases and track those to a specific take of a polar bear. And 
that is the problem that we face in the presumption that is out 
there, that we would be able to regulate all of this and tie it 
to the polar bear.
    Senator Inhofe. Yes. And I appreciate that, I am sorry to 
rush you. I do have one more question. It appears to me, and I 
hate to interject logic into this, but it would seem to me that 
if we were not to be able to have this, if the connection were 
made between a power plant in Oklahoma City, therefore 
something would happen that would be, to halt it in some way, 
then we would be more dependent upon China and places where 
they don't have the controls that we have.
    Last, and if it is all right, Madam Chairman, since we will 
take the time off from our scriptural exchange----
    Senator Lieberman. But I thought it was timeless.
    Senator Inhofe. Very good.
    This is a quote: ``There is no evidence to suggest that ice 
in the Arctic Basin disappeared entirely during either of these 
two warming periods.'' Now, the two warming periods we are 
talking about were the Glacial Maximum, about 8,000 to 9,000 
years ago in the mid-Holocene warm period, 10,000 to 11,000 
years ago. In any of these warming periods, which were of equal 
or greater warming than predicted by the IPCC's climate warming 
modelers, nor did any ice-dependent species become extinct. 
Will this factor into your decision?
    Mr. Hall. We are factoring in all historic data that we are 
able to calculate, including the speed of the warming, along 
with the end result of the warming temperature. Because we are 
analyzing for a species, for a living animal and how it might 
or might not be able to adjust to that. And there are 
differences in the length of time that it took for the warming 
to occur in those earlier periods than the length of time that 
it appears to be taking today.
    Senator Inhofe. Thank you.
    Senator Boxer. Thank you.
    Senator Lautenberg?
    Senator Lautenberg. Madam Chairman, it feels like we are on 
the precipice here, it feels like we are on the edge of the 
precipice, the race between getting the protection for the 
polar bear in place and the rush to start the process for 
drilling. I would like to see if we can't make certain that the 
drilling permits are contingent upon the outcome, Mr. Hall, of 
the report that you have on polar bears.
    I heard some exchange between you and the Chairman, have 
you said that February 6th is not possible?
    Mr. Hall. I have not said that.
    Senator Lautenberg. I heard the language, but I didn't 
understand the outcome.
    Mr. Hall. No, sir. I have said that on January 7th, when I 
came out and had the news release and alerted people that it 
would take us approximately another 30 days, my answer is that 
that is still my goal. That is still the effort that I want to 
meet.
    Senator Lautenberg. Well, why couldn't you issue a report 
that says whatever delays you might have in front of you, that 
no drilling, that your recommendation, there is no process that 
begins the drilling exercise should take place?
    Mr. Hall. I am not aware that what has come up with MMS is 
a drilling. It is a lease sale exercise. So----
    Senator Lautenberg. It is not an insignificant exercise.
    Mr. Hall. No, sir, I am not trying to say that it isn't. 
But under that exercise, our staff in Alaska did work with the 
Minerals Management Service using the guidelines of the Marine 
Mammal Protection----
    Senator Lautenberg. I heard you say that.
    Mr. Hall [continuing].--to make sure, which, the Marine 
Mammal Protection Act is actually a little more stringent in 
the take prohibition than the ESA is. But they did work with 
them on that.
    Senator Lautenberg. Right. But I want to get down to the 
nub of things and ask, you are a person of some significant 
respect in the community, the environmental community. Why we 
can't get an assurance from you that delays that you generously 
took responsibility for says to me that the Department is not 
equipped, I mean, you are not the person who is doing the work, 
you have a team there.
    So for whatever reason, you are not guaranteed a finish by 
February 6th. And I would urge you to use the influence that 
you have as the Director of Fish and Wildlife to say, you 
recommend that nothing be done in that area, that you are close 
to having a report delivered and you would like the opportunity 
from the other agencies to hold up on anything until we 
complete. Is this an important study that we are looking at?
    Mr. Hall. The important study being?
    Senator Lautenberg. On the polar bear, on the important 
species.
    Mr. Hall. Yes.
    Senator Lautenberg. OK.
    Mr. Hall. It is an important study.
    Senator Lautenberg. So if you could give us the assurance 
that some of us are looking for, that you understand that what 
you are doing will make a difference in the way we approach the 
leases. We need your help.
    Mr. Hall. I understand your concern.
    Senator Lautenberg. You have taken responsibility boldly 
for the delay, so we need your help now to protect the 
situation as we would like it done.
    Now, you said before that you introduced a new code of 
conduct for the scientists on your staff?
    Mr. Hall. Yes, sir. It is not new, it is a followup to the 
Office of Management and Budget encouragement that we establish 
scientific codes of conduct.
    Senator Lautenberg. And what did we do before this? Was the 
conduct arbitrary, left to the individual?
    Mr. Hall. What this one does is it clearly identifies who 
is in the scientific arena and who isn't.
    Senator Lautenberg. Was that a question?
    Mr. Hall. There were questions in the past about 
involvement and discussions, and the Secretary wanted to make 
clear that, I am one of those oddities. My job requires that I 
have scientific credentials and fish and wildlife experience, 
so that I am a scientist. At the same time, I am the first leg 
of the policy development within the Department. So I wanted to 
make sure, this is something personally important to me, that 
we make sure that everyone understands that whatever you see 
coming from the Fish and Wildlife Service is of the highest 
scientific regard and as much as possibly be done without 
emotion.
    Senator Lautenberg. That was not clear before, apparently, 
otherwise it wouldn't need a review and a restatement?
    Mr. Hall. There is also question about our scientific 
findings.
    Senator Lautenberg. Last question, please, Madam Chairman.
    Could an oil spill in that area, what would the effect 
perhaps of an oil spill in the region that we are talking about 
the polar bear, do you have any view of what kind of a 
condition might result to the bear population?
    Mr. Hall. In my discussion with our polar bear experts, it 
is expected that if a polar bear were to get oiled, that 
mortality would occur because of the natural grooming, the 
conditioning that the bear goes through, it would ingest the 
oil. And our polar bear experts assumed that any single bear 
that would be oiled would likely end up in mortality.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Director Hall, thank you very much for being here today. I 
will get to the polar bear in a second. I wanted to first, 
there was a letter that the Wyoming delegation sent to 
Secretary Kempthorne in December. One has to do with the sage 
grouse. We felt that the right decision was made when it chose 
not to list the sage grouse. Subsequently, the people of 
Wyoming, who have always been interested in protecting the sage 
grouse and its habitat, have formed working groups, developed 
and implemented community-based plans to work with the sage 
grouse, and with habitat. The game and fish department has 
limited the hunting season, doing the kinds of things we want 
to do to help with recovery.
    There has been a lawsuit, the Western Watersheds Project, 
and a court ruling. And we understand that requests for 
documents have been made. The Wyoming delegation has, in this 
letter, asked that we could please get copies of all the 
documentation used to support these decisions. We have not 
received those yet, it has been about 6 weeks. I am just asking 
that if you could make a note of that and get a look, and we 
can get a copy of this letter to you again requesting some of 
those helpful documents.
    Mr. Hall. OK.
    Senator Barrasso. But we appreciate the decision that was 
made regarding this and agree with it. We just want to make 
sure that we get to see what else is going on there, because we 
are doing everything we can as a State to help protect this.
    Mr. Hall. And the States are doing a very good job of 
working with us on this, and we do appreciate it.
    Senator Barrasso. Thank you very much.
    With regard to the polar bear, and Senator Inhofe had a 
question about a hypothetical case of what the impacts would be 
if there is a project in Oklahoma, we have similar questions in 
Wyoming; how far does this go with potential greenhouse gas 
emissions and what impact they may have in contributing to 
these issues. If we are building a road and that is going to 
allow more cars to be driven with emissions, how far does this 
go and what can the impact be with all activity which may 
contributing to the issues of global climate change?
    Mr. Hall. How far it goes, in my narrow view of the world, 
in implementing the Endangered Species Act, I have to stay 
within those legal decisions that I cited a minute ago. We have 
to stay within the strength and the maturity of the science.
    As I was explaining earlier, I don't believe that it is 
possible for us to meet the legal standard of having the 
proximal cause, cause and effect to reach take for emissions 
done somewhere else on the globe and be able to use the science 
that cannot make that connection for us. Right now, the 
greenhouse gas concentrations discussions are really 
discussions from all sources. They do talk about general 
breakdowns.
    But to be able to track something from the action, which is 
what we must analyze for an agency, to a point of effective, we 
have to have the science that makes that clear bridge and 
tracks that there. My response is, we can't get there today 
with the level and maturity of the science that we have.
    So when you reach out into CAFE standards or into industry 
or other things, other aspects, including our own homes, we 
don't know yet how to break that down and make that connection 
and have that be responsible for the loss of polar bears, or 
any other species that we might have listed. That is the 
requirement under the law for us to be able to do that.
    Senator Barrasso. Thank you, Director Hall. Thank you very 
much, Madam Chairman.
    Senator Boxer. Thank you, Senator Barrasso.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thanks, Mr. Hall. It strikes me, I don't know whether we 
should put this in the record, but you are a career Fish and 
Wildlife Service person. You come to the directorship from 
that. So you have spent your life in this work, and I 
appreciate that. To me, that gives you some credibility as you 
testify before us.
    I mentioned in my opening remarks the study commissioned by 
Senator Kempthorne from the U.S. Geological Survey that 
concluded that two-thirds of the world's polar bear population 
could be lost by the middle of this century. I just want to ask 
you, not at great length, but generally, whether you viewed the 
USGS survey as a credible survey?
    Mr. Hall. We do view the USGS science as credible science. 
And the prediction that they made in that science was not 
necessarily that two-thirds of the polar bears would be gone, 
but that two-thirds of the habitat that they need to survive 
would be gone.
    Senator Lieberman. Right.
    Mr. Hall. That was the prediction they made there. And then 
they stepped that over into other studies and talked about the 
bear population.
    Senator Lieberman. Got it, OK. I appreciate that. So it has 
some credibility. We had a series of questions about the timing 
of the oil and gas leases and the Chukchi Sea, as related to 
the decision about whether to list the polar bear in the ESA. I 
just wanted, for the record, to ask you if you would describe 
the additional, to the best of your ability in this testimony, 
the additional steps the Federal Government would need to take 
in examining the proposed Chukchi Sea lease sale, if the polar 
bear were first to be listed as a threatened species under the 
ESA. I understand, as you alluded to earlier, that there are 
other laws, notwithstanding the ESA, that require some steps to 
be taken with regard to wildlife.
    But what additionally would be required if the ESA listing 
occurs?
    Mr. Hall. The only thing additional that would be required 
would be a formal Section 7 consultation that would be added to 
the Marine Mammal Protection Act consultation and the OCS Act 
requirements. If the lease sales went forward, then the next 
steps would be industry proposals. And they start to get very 
specific. Then we would consult under each of those laws again 
for each of those steps along the way.
    So the only additional thing would be a Section 7 
consultation on top of the Marine Mammal Protection Act and on 
top of the other things that are there.
    Senator Lieberman. Right. Just briefly, what does the 
Section 7 consultation involve?
    Mr. Hall. The Section 7 consultation is under, obviously, 
Section 7 of the Act that requires that no Federal agency 
undertake an activity that might jeopardize the continued 
existence of a species.
    Senator Lieberman. OK, that is important. Finally, the work 
done by the Minerals Management Service in considering the 
Chukchi Sea leases included some environmental impact 
statements. In the EIS that the MMS obtained, there was a 
recognition that there was a 40 percent chance of a large crude 
oil spill, 26 percent for a pipeline spill and 19 percent for a 
platform spill as a result of the Chukchi Sea activities. The 
Minerals Management Service acknowledges that, predicts, I 
suppose, that between 750 and 1,000 oil spills are likely from 
its proposal to open up the Chukchi Sea to oil and gas 
development.
    The reason I mention this is that while, in my opinion, 
clearly the most significant threat to the existence of polar 
bears today is the loss of the sea ice habitat and as has been 
said, access to prey, it does seem to me that the oil and gas 
development that were being, or leases that were being talked 
about and relevant development, is also a source of some danger 
of a different sort to the polar bears. Would you agree?
    Mr. Hall. Yes, sir.
    Senator Lieberman. Thank you. Thank you for your testimony.
    Thanks, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Craig.
    Senator Craig. Dale, again, thank you very much for your 
testimony. This is one Senator that is not going to ask you to 
rush the science. Get it right, as best you possibly can. I am 
amazed that there is even an implication or a suggestion by any 
Senator that the science ought to be rushed. Because we have 
questioned the science of your agency over time. Was it 
political science or was it good biological science?
    I am also always a little disturbed when U.S. Geological 
gets into the biological business instead of the geological 
business as to their credibility. Your credibility is important 
here, and the work you do is important. I recognize you and the 
Secretary for establishing a protocol for your science and 
reinforcing it. Credibility in that process is very, very 
important.
    So get the science right. I don't want to use it as a 
block, I don't want you to rush it to stop a lease sale, 
because you have just mentioned to Senator Lieberman the 
process. And there is a process. Because it is clearer that 
there are some Senators who want to use this as a blocking 
tactic. That is pretty clear by the line of questioning that 
has gone on here today.
    Once the lease sale is released and leases are bought, 
there is a process, the application for a Federal permit to 
drill. That is where Section 7 comes into play, it is my 
understanding. And everything must be done within that process 
by the company to meet the standards that you set down in that 
process, to mitigate as best they can against any degradation 
to the environment and/or to the species that might be 
involved, is that not correct?
    Mr. Hall. It is, sir, and it happens at each step, from the 
seismic activity to the expiration to the development.
    Senator Craig. In other words, all human activity that 
might result from a lease sale in the Chukchi Sea would require 
that kind of process, would it not?
    Mr. Hall. Yes, sir, at each step of the way.
    Senator Craig. Would your agency, during that process, have 
people in place to observe and to participate in those 
activities, if a lease sale went through, if a permit to drill 
were allowed, and if those standards were developed, how would 
you monitor those?
    Mr. Hall. Historically, and we have worked with the 
National Marine Fisheries Service for observers to be present 
in areas where we had overlapping jurisdiction, in this case 
marine mammals. The National Marine Fisheries Service has most 
of the marine mammals and we have four or five of them. So the 
National Marine Fisheries Service does generally have observers 
out on ships for fishing and we would expect that there may be 
that case here for oil and gas development.
    Senator Craig. You would expect that that might be the 
case, or you would believe that that would be the case?
    Mr. Hall. I don't know the answer to that yet. We would 
have to wait until, as we move forward into the process.
    Senator Craig. Thank you very much.
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you, Chair.
    It is good to see you again, Director Hall. I thank you for 
traveling to Minnesota on a very cold day to attend our 
national Pheasants Forever convention. We were excited to have 
10,000 people there. I spoke, I think you spoke.
    Mr. Hall. Yes, ma'am.
    Senator Klobuchar. It was very good.
    I was actually also surprised at the number of hunters and 
wildlife people there that mentioned climate change to me. As 
you know, I talked about cellulosic ethanol in my speech, and 
our concern about the effect that the changing world is having 
on our lands and their sport. So I just wanted to mention that 
for the record as well.
    But today we are talking about the polar bear. I will say I 
am concerned, having not been here for too long, but realizing 
that the first petition to list polar bears was made in 
February 2005. And here we are, 3 years later, now still being 
told that a decision is in the future. With the 
Intergovernmental Panel on Climate Change predicting a total 
loss of summer sea ice in as soon as 30 years, the USGS study 
mentioned by Senator Lieberman, which is predicting a loss, as 
you clarified, of habitat by two-thirds, I just don't think we 
can afford to keep delaying.
    My questions are about, first of all, the listing. Some 
people claim that a threatened listing for polar bears would 
create some kind of patchwork of regulation, when taken 
together with the Marine Mammal Protection Act and 
international agreements on polar bear conservation. What are 
your views on this? Are there ways to simplify this? I am just 
trying to figure out why this would create a problem.
    Mr. Hall. I think the way I would like to answer that, 
because I am not exactly sure of the patchwork, but let me just 
say that the standards for marine mammals, under both the 
Endangered Species Act and the Marine Mammal Protection Act for 
the protective standards are very close. And as a matter of 
fact, in some cases, the Marine Mammal Protection Act that is 
in place is more protective.
    So obviously, if a species were listed, that is a marine 
mammal, if it were listed under the Endangered Species Act, one 
of the first things we would want to do is synchronize the 
Marine Mammal Protection Act and the Endangered Species Act 
operations and reviews so that----
    Senator Klobuchar. Would there be additional protections 
that would come into effect if you were to list it?
    Mr. Hall. I am not sure. And the reason that I say that is 
under the Marine Mammal Protection Act, the standard, for 
example, the oil and gas operations that were just being talked 
about, the standard under the Marine Mammal Protection Act is 
no negligible harm. And under the Endangered Species Act, an 
agency would be able to move forward and avoid jeopardizing the 
species. Those standards are obviously very far apart.
    So in that regard, the Marine Mammal Protection Act is far 
more protective.
    Senator Klobuchar. Could you describe the impact that this 
polar bear listing, if it happens, will have on Federal and 
State climate change initiatives? The argument has been made 
that if a listing compels the Government to protect habitat and 
the habitat loss has been caused by global warming, then a 
listing might compel Government to take action. Do you think 
that is true?
    Mr. Hall. I think that the polar bear, as I said in my oral 
comments as I opened, is that the polar bear is a message for 
us here. But I think it would be a mistake to hang too much on, 
even if we list or don't list, it's too much to hang it on any 
given species. If climate change is an issue that we want to 
address, and I believe that all Americans want to make sure 
that we don't do something that we can't reverse, that will 
leave harm for our future generations, then I think we need to 
address it as a societal world issue as well.
    Symbols like the polar bear help to galvanize and help to 
get people to understand the significance. But the Endangered 
Species Act simply is not the vehicle, I do not believe, to 
reach out and demand all the things that need to happen after a 
good, common discussion about what should happen.
    Senator Klobuchar. Our State doesn't have a lot of polar 
bears, but we have trout and other freshwater fish that, I 
think there are some good arguments to be made, are going to be 
threatened by climate change. Is there work being done to look 
at other animals and fish that may be affected by this?
    Mr. Hall. Yes, ma'am. Senator, it is a very good question, 
I am glad you brought it up. Because it does tend to get lost 
in the discussion. I think most Federal agencies, almost all 
State agencies, game and fish agencies that I am aware of, and 
a lot of foreign nations that we work with are all trying to 
address the issue of climate change and not tie it to a 
species, but tie it to a complete type of ecosystem.
    For example, I firmly believe that we should be looking at 
the Arctic as an ecosystem and what will happen? There will be 
winners and there will be losers as ecosystems change. How do 
we deal with that? And coming down into the sub-Arctic, but it 
sure felt like I was in the Arctic when I was in Minnesota, but 
when you come down into those areas, all of us are working to 
try and understand much larger questions than a species. I 
think if we are going to make real progress, that is the way we 
have to look at it, what can we really learn that will help us 
understand how species and whole ecosystems will respond to 
these changes. I really believe that is where the effort should 
be.
    Senator Klobuchar. Thank you.
    Senator Boxer. I noted that we have been joined by Senator 
Warner, who is Ranking Member of the subcommittee that deals 
with wildlife. I wonder if you would like to make an opening 
statement and ask Mr. Hall some questions before we move to our 
next panel.
    Senator Warner. Thank you. I would just like to be listed 
as one supporting listing as an endangered species, and let's 
get on with it. I will just put a short statement into the 
record. I am very envious of the job you have, which is about 
the only job I would take in trading this one.
    [The prepared statement of Senator Warner was not submitted 
at time of print.]
    Senator Boxer. This could be very exciting.
    Mr. Hall. Our staffs are still trying to figure out how to 
get us fishing together, Senator.
    Senator Warner. That is correct, we had that fishing trip 
planned. Thank you very much.
    Senator Craig. Come to Idaho, will you two come to Idaho 
and fish? I'll take you fishing, how is that.
    Senator Boxer. Senators, thank you very much.
    What I want to do, just in concluding this, is to put a few 
things in the record and also give to my colleagues a picture 
that I won't put up here, because it is a very sad picture of a 
starving polar bear. There are many of us who believe if we 
don't take action, this is what we will be looking at instead 
of these magnificent pictures that we have shared today.
    So this is what I want to do, I want to put into the record 
and I want to clear the record on something as well, your 
mission statement, sir. The mission of the U.S. Fish and 
Wildlife Service is working with others to conserve, protect 
and enhance fish, wildlife and plants and their habitats for 
the continuing benefit of the American people. So I think 
focusing on the ethics, the science and your mission, I think 
is very, very important.

    [The referenced material follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.419
    
    Senator Boxer. I also, because one of our Senators told 
you, do not rush, I have to take issue with that. There is a 
law, and the law says you must act. This isn't about one 
Senator saying, I think this is really important, this isn't 
about one Senator saying, don't rush or rush. This is about the 
law. The law says that you needed to act by January 9th of this 
year. You took full responsibility for the delay, which I 
appreciate, I really do. You didn't blame anyone else. But the 
fact is, you didn't file the appropriate papers you were 
supposed to under the Act.
    So you are not obeying the law. That is serious. SO it is 
not a question of rush or don't rush. You need to obey the law. 
And as Chairman of this Committee, I urge you to obey the law.
    Now, you are delinquent, but the quicker you act now, and 
again, if you need to work overtime, a lot of us will help you 
with, go through these comments, whatever it is you need, we 
will make available to help you.
    But I think it is really key, and I want to put into the 
record the citing of this section of the law that requires you 
to act. It is the Endangered Species Act, 16 U.S.C. 1533(b)(6). 
So again, if you or I broke the law outside of this, just a law 
outside of the Senate, there would be consequences. We wouldn't 
just sit there and say to the judge, I am sorry, I am not 
obeying the law. There would be consequences.
    Now, the consequences for taxpayers is, you are going to be 
sued. There has already been an intent filed, because you 
didn't follow the law. So I think this is key.
    And then just to lighten it up a little, I thought I would 
put into the record another very interesting quote, made in the 
year 500 A.D. in a commentary on Genesis. One of the great 
rabbis said, ``See my handiwork, how beautiful and choice. Be 
careful not to ruin and destroy my world, for if you ruin it, 
there is no one to repair it afterward.''
    So I think this is something that we all feel strongly 
about. Now, we may come at it in different ways. But I think we 
all feel strongly about it. I think this has been a very 
important hearing. Mr. Hall, I just want you to know, I am 
completely at your disposal to help you move forward on this.
    Was there anything else?
    Senator Craig. Madam Chair, in a sense of fair play, may I 
take just a moment?
    Senator Boxer. Yes.
    Senator Craig. Certainly when I suggested to the Director 
that he get the science right, I was not suggesting and I must 
ask that the record show that he violate the law to do so. You 
implied that I might be suggesting that by your statement. I 
did not do that.
    I believe that when we do good science, then we can create 
good policy. And if this is a question of getting it right, get 
it right. But it was not my intent, Madam Chair, to suggest 
that he violate the law to do so. Thank you.
    Senator Boxer. Well, I am really glad, because you did say, 
``don't rush.'' And the point is----
    Senator Craig. And then I said, ``Get the science right.''
    Senator Boxer. Yes, well, we all want that.
    Senator Craig. Thank you. Let's keep it in context.
    Senator Boxer. No, no, no. I am very happy you clarified 
it. I just wanted to make the point that there is a date 
certain. Mr. Hall took responsibility for the delay. I am 
encouraging him to use whatever resources at his disposal to 
save this creature. And I think it is very important, because 
while we are delaying here, we are rushing on a lease sale 
here. There is, in many people's minds, a connection to the 
two.
    Thank you very much. We are going to move forward. Yes, of 
course.
    Senator Warner. I won't take but a minute. Any of us who 
were fortunate to raise a family of young children, as I did, 
know that at some point in their life, the house is scattered 
with panda bear toys. In a way this is the panda bear for the 
Atlantic region, count it on down. There is a great fascination 
about this magnificent beast.
    I would just ask, are there other things we could do, apart 
from putting it back on the species list, or keeping it on, 
whatever the case may be, are there other Federal policies that 
could be invoked to help?
    Mr. Hall. Well, sir, as I alluded to a minute ago----
    Senator Warner. Well, if you have already covered it----
    Mr. Hall. No, no, I only alluded to it with the other 
question. And that is that this is a much larger issue. The 
bills that you have in Congress looking at ways to approach 
greenhouse gas management and making sure that we are doing 
what we can to control, those are larger issues than the 
Endangered Species Act. That was really the point that I wanted 
to try and make, is that to rely on the Endangered Species Act 
to make those kinds of decisions, in my opinion, takes it out 
of the realm of this discussion, where it really needs to be.
    Senator Warner. Last, are there any other species of 
animals that are similarly in peril in the Arctic region?
    Mr. Hall. We will be looking at the Arctic. There are 
questions about the movements there as well. But climate change 
has regional impacts. It may be sea level rise on the Gulf 
Coast and in your part of the world. It may be droughts in the 
Southwest. It may be floods in other areas and rain instead of 
snow in the mountains for that summer water that is so 
important out west.
    We need to address this, I believe, on a regional basis, 
working together.
    Senator Warner. I thank the witness and thank the Chair.
    Senator Boxer. Thank you. Yes, we thank you, sir. We will 
be in close touch.
    We will call up panel two, Margaret Williams, Director, 
Bering Sea Ecoregion and Russia projects, from the World 
Wildlife Fund; Andrew Wetzler, Director, Endangered Species 
Project, from the NRDC; Brendan Kelly, Ph.D., Associate Vice 
President for Research, University of Alaska; Richard Glenn, 
Alaskan Arctic resident and sea ice geologist; J. Armstrong, 
Ph.D., Professor of Marketing, The Wharton School, University 
of Pennsylvania.
    We welcome all of you. I know you have been very, very 
patient. We really are happy, and we are going to start right 
in, if you can take your seats quickly.
    Ladies and gentlemen, I am going to ask you to do what we 
didn't too well here, which is to keep your opening remarks to 
the 5-minutes. My Ranking Member, I really want him to be here 
to question, and he has a tight schedule.
    So we will start with you, Dr. Kelly. We are very happy you 
are here representing the World Wildlife Fund.

 STATEMENT OF BRENDAN P. KELLY, PH.D., ASSOCIATE PROFESSOR OF 
    MARINE BIOLOGY, ASSOCIATE VICE PRESIDENT FOR RESEARCH, 
                      UNIVERSITY OF ALASKA

    Mr. Kelly. Thank you. Senator Boxer, Senator Inhofe, 
members of the Committee, I appreciate the opportunity to share 
with you my assessment of the threats posed to polar bears by 
climate change.
    The Fish and Wildlife Service brings bad news that none of 
us wants to hear. I must confess that when I was asked to 
review their proposed listing and the supporting documents, I 
was looking forward to finding some critical flaw in their 
analysis or the conclusions. That is not what I found, however. 
Instead, I found that they have carefully assembled the best 
available information and conducted a thorough and thoughtful 
analysis.
    For over 30 years, I have studied the marine mammals that 
inhabit Arctic seas. During those three decades, I have 
witnessed dramatic changes in the sea ice environment that 
provides essential habitat to seven species of seals, to 
walruses and to polar bears. Most dramatic has been the decease 
in the seasonal duration and extent of sea ice. I have seen in 
the graphic--can we put that graphic back up that shows the ice 
retreat? As seen in this graphic, the summer ice extent has 
been reduced almost by one half. The Intergovernmental Panel on 
Climate Change, the American Geophysical Union and the vast 
majority of sea ice physicists predict that there will be no 
summer sea ice in the Arctic within this century, possibly 
within 30 years.
    The loss of over 8 million square kilometers of summer sea 
ice will endanger many plants and animals that are adopted to 
that once extensive habitat. Polar bears will be especially 
negatively impacted, as they are adapted to a narrow niche; 
namely, hunting seals on sea ice.
    Polar bears began to separate from the brown bear 
population several hundred thousand years ago. Eventually, and 
I stress eventually, that new line of bears began to specialize 
on hunting seals and walruses that were abundant on the Arctic 
sea ice.
    A key feature of that specialization was the evolution of 
teeth specialized for meat-eating, quite different from the 
brow bear's teeth, which reflect a more generalist diet. Thus 
polar bears, like the seals they prey upon, and many Arctic 
organisms, are specifically adapted to the sea ice environment. 
In the absence of summer sea ice, such specialized species will 
be threatened by competition from other species, by the 
disappearance of prey, by the loss of breeding habitat and by 
potential hybridization or inter-breeding with other species.
    Without summer sea ice, polar bears will overlap for longer 
periods with brown bears in habitat to which brown bears are 
better adapted, putting the polar bears at a competitive 
disadvantage. Food will be less available to polar bears, as 
populations of their ice-associated prey decline. Their main 
prey, the ring seal, depends on spring snow cover to 
successfully raise their pups. And increasingly early snow 
melts associated with climate change are exposing those seal 
pups to predation at extreme temperatures.
    Emergence of female and young polar bears from dens in the 
spring coincides with the seals' birthing season and the newly 
emerged bears depend on catching and consuming young seals to 
recover from months of fasting. The match in timing between 
polar bear emergence and the availability of young seals may be 
disrupted by changes in the timing and duration of snow and ice 
cover.
    The polar bear's ability to capture seals depends 
critically on the presence of ice. Hunting on the ice, bears 
take advantage of the fact that the seals must surface to 
breathe in limited openings in the ice. They have evolved 
complex behaviors for locating and capturing the seals on the 
ice.
    On the open ocean, however, bears lack a hunting platform. 
Seals are not restricted in where they can surface, and 
successful predation is exceedingly rare. Only in ice-covered 
waters are bears regularly successful at hunting seals. When 
restricted to shorelines, bears feed little, if at all.
    The most obvious change to the breeding habitat is the 
reduction in snow cover on which successful denning depends. 
Female polar bears hibernate for four to 5 months each year in 
dens in which they give birth to cubs, each weighing about one 
pound. Those small cubs depend on the snow cover to insulate 
them from the cold.
    Some criticisms of the proposal to list polar bears as 
threatened reflects misconceptions about the predictions of 
climate models and the predictions of population models. There 
are fewer and fewer serious critics of climate models, and that 
is not surprising when you consider the marked consistency of 
the 23 major models and their abilities to reconstruct past 
climates.
    While models developed in different laboratories vary from 
one another in terms of the exact amount of warming predicted 
in the coming century, they all predict warming. None predict 
cooling or even a stable climate. The reliabilities of the 
models is also seen in their tremendous power to accurately 
reconstruct global temperatures for the past 750,000 years, as 
recorded in ice cores. Models that can accurately hindcast for 
a million years are a good bet for forecasting. Thus, it is the 
that pronounced future climate warming and melting of ice is 
the overwhelming consensus view in the scientific community.
    While climate models can be validated in using temperature 
records and ice cores, population models do not have a 
comparable record for validation.
    Senator Boxer. Sir, you are going to have to finish, 
because you are going way over time.
    Mr. Kelly. OK. I will just finish by saying that the 
approaches used by the Fish and Wildlife Service and the USGS 
have been well tried and evidence their efficacy in other 
species. I don't think we need to wait for a body count to know 
that these reductions are happening. The most recent IPCC 
reports that the resilience of many ecosystems is likely to be 
exceeded by the year 2100.
    [The prepared statement of Mr. Kelly follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.006
    
    [GRAPHIC] [TIFF OMITTED] T2737.007
    
    [GRAPHIC] [TIFF OMITTED] T2737.008
    
    [GRAPHIC] [TIFF OMITTED] T2737.009
    
    [GRAPHIC] [TIFF OMITTED] T2737.010
    
    Senator Boxer. We're going to have to stop you there. 
Because we just told everyone to stick with 5 minutes.
    So next is Margaret Williams, of the World Wildlife Fund. 
Welcome.

 STATEMENT OF MARGARET WILLIAMS, MANAGING DIRECTOR, KAMCHATKA/
       BERING SEA ECOREGION PROGRAM, WORLD WILDLIFE FUND

    Ms. Williams. Thank you, Madam Chair, and members of the 
Committee. It is an honor to speak to you on the subject of 
protecting polar bears and their habitat.
    My name is Margaret Williams, and I represent the World 
Wildlife Fund, WWF, an international conservation organization 
with 1 million members in the U.S. and 5 million members 
worldwide. For more than 20 years, World Wildlife Fund has been 
an active player in the Arctic, and polar bears and other 
Arctic species have been a major focus of our work.
    I have submitted my full written testimony for the record, 
but in the next few minutes, I would like to speak about the 
history of polar bear protection and recommend actions to 
protect the species. Many of those who oppose the listing of 
the polar bear under the ESA, the Endangered Species Act, State 
that polar bears today are more numerous than they were 40 
years ago. That is correct. This is because polar bears were 
over-harvested by trophy hunters into the middle of the 20th 
century, when numbers dipped to the low thousands.
    Fortunately, the U.S. took action with the passage of the 
Marine Mammal Protection Act in 1972. A year later, the U.S. 
took further action for polar bears, signing on to the 
International Agreement for the Conservation of Polar Bears, 
committing our Nation to ``take appropriate actions to protect 
the ecosystems in which polar bears live.''
    The U.S. is also party to another international treaty, 
which is aimed specifically at conserving a polar bear 
population which we share with Russia, the Alaska-Chukotka, 
also known as the Chukchi population. While the MMPA and these 
international agreements provide an important framework for 
conservation, today more is needed to protect polar bears. The 
leading threat to the species is climate change, and we have 
heard a lot of the data this morning. In the last three 
decades, the Arctic has undergone a major transformation. 
Arctic summer sea ice has shrunk by approximately 10 percent 
per decade since 1979, the equivalent of the area the size of 
California and Texas combined.
    For a species whose life cycle entirely depends on the ice, 
this means less time to hunt and eat, leading to declines in 
body condition, reproduction and ultimately declines in 
survival. These facts have been well documented in hundreds of 
peer-reviewed scientific papers, including a report by the 
Nobel prize-wining Intergovernmental Panel on Climate Change.
    A compelling body of work explaining the relationship of 
polar bears to sea ice was complemented last fall by a series 
of comprehensive reports by the U.S. Geological Survey. And 
again, we have heard it, the USGS shows that two-thirds of the 
world's polar bears, including America's two populations, could 
be lost by mid-century. Based on this unequivocal science and 
based on the requirements of the Endangered Species Act, the 
polar bear must be listed as threatened.
    While climate change is the primary threat, other factors 
must also be considered. As the health of the species is 
compromised, we must eliminate other sources of stress and 
disturbance. One such factor is oil and gas development, 
concern over which was expressed by the Polar Bear Specialist 
Group in 2001, and this is the world's preeminent body on polar 
bears, when it reported that industrial development of oil and 
gas resources and consequent increases in shipping are major 
concerns as future threats for polar bears and their habitats.
    The issue is now very pertinent, because in 2 weeks, the 
Minerals Management Service, MMS, will conduct a lease sale for 
oil and gas in 29 million acres in the Chukchi sea, the home 
range of a species whose future is already tenuous. MMS has 
acknowledged a huge lack of information about the wildlife in 
this marine area, home not just to polar bears, but seals, 
whales, walrus, and remarkable numbers of birds. In fact, MMS 
ignored the advice of the National Marine Fisheries Service, 
which recommended removing the Chukchi Sea entirely from the 
MMS 5-year program.
    In regard to the delay----
    Senator Boxer. Say that one more time.
    Ms. Williams. The National Marine Fisheries Service 
recommended removing the Chukchi Sea from the MMS 5-year plan 
on oil and gas development, the plan from 2007 to 2012, which 
just went into effect in July.
    In regard to the delay in its decision on listing the polar 
bear, the U.S. Fish and Wildlife Service explained that 
additional time was needed to conduct necessary data analyses. 
Yet MMS is not following the same example, instead, rushing 
forward for no clear reason on the Chukchi sale. Just as the 
U.S. took action 30 years ago to help the polar bear, we must 
do the same today. In addition to listing the species under the 
ESA on a global scale, this means drastically reducing CO2 
emissions and other greenhouse gases and on a regional scale, 
delaying the lease sale on the Chukchi Sea until there is 
adequate information and until adequate measures have been put 
in place to protect polar bears and their habitat.
    In closing, I would like to say that on nearly a daily 
basis I am in contact with scientists and conservation 
colleagues from around the Arctic. They are eagerly waiting to 
see how and whether the U.S. will protect polar bears and their 
Arctic habitat. Indeed, the world is watching us. I urge the 
Secretary of Interior to do the right thing for the polar bear 
and for the planet. I applaud this Committee's attention to 
this important species.
    Thank you.
    [The prepared statement of Ms. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.011
    
    [GRAPHIC] [TIFF OMITTED] T2737.012
    
    [GRAPHIC] [TIFF OMITTED] T2737.013
    
    [GRAPHIC] [TIFF OMITTED] T2737.014
    
    [GRAPHIC] [TIFF OMITTED] T2737.015
    
    [GRAPHIC] [TIFF OMITTED] T2737.016
    
    [GRAPHIC] [TIFF OMITTED] T2737.017
    
    [GRAPHIC] [TIFF OMITTED] T2737.018
    
    [GRAPHIC] [TIFF OMITTED] T2737.019
    
    [GRAPHIC] [TIFF OMITTED] T2737.020
    
    [GRAPHIC] [TIFF OMITTED] T2737.021
    
    [GRAPHIC] [TIFF OMITTED] T2737.022
    
    [GRAPHIC] [TIFF OMITTED] T2737.023
    
    [GRAPHIC] [TIFF OMITTED] T2737.024
    
    [GRAPHIC] [TIFF OMITTED] T2737.025
    
    [GRAPHIC] [TIFF OMITTED] T2737.026
    
    [GRAPHIC] [TIFF OMITTED] T2737.027
    
    [GRAPHIC] [TIFF OMITTED] T2737.028
    
    [GRAPHIC] [TIFF OMITTED] T2737.029
    
    [GRAPHIC] [TIFF OMITTED] T2737.030
    
    [GRAPHIC] [TIFF OMITTED] T2737.031
    
    [GRAPHIC] [TIFF OMITTED] T2737.032
    
    [GRAPHIC] [TIFF OMITTED] T2737.033
    
    [GRAPHIC] [TIFF OMITTED] T2737.034
    
    [GRAPHIC] [TIFF OMITTED] T2737.035
    
    [GRAPHIC] [TIFF OMITTED] T2737.036
    
    [GRAPHIC] [TIFF OMITTED] T2737.037
    
    [GRAPHIC] [TIFF OMITTED] T2737.038
    
    [GRAPHIC] [TIFF OMITTED] T2737.039
    
    [GRAPHIC] [TIFF OMITTED] T2737.040
    
    [GRAPHIC] [TIFF OMITTED] T2737.041
    
    [GRAPHIC] [TIFF OMITTED] T2737.042
    
    [GRAPHIC] [TIFF OMITTED] T2737.043
    
    [GRAPHIC] [TIFF OMITTED] T2737.044
    
    [GRAPHIC] [TIFF OMITTED] T2737.045
    
    [GRAPHIC] [TIFF OMITTED] T2737.046
    
    [GRAPHIC] [TIFF OMITTED] T2737.047
    
    [GRAPHIC] [TIFF OMITTED] T2737.048
    
    [GRAPHIC] [TIFF OMITTED] T2737.049
    
    [GRAPHIC] [TIFF OMITTED] T2737.050
    
    [GRAPHIC] [TIFF OMITTED] T2737.051
    
    [GRAPHIC] [TIFF OMITTED] T2737.052
    
    [GRAPHIC] [TIFF OMITTED] T2737.053
    
    [GRAPHIC] [TIFF OMITTED] T2737.054
    
    [GRAPHIC] [TIFF OMITTED] T2737.055
    
    [GRAPHIC] [TIFF OMITTED] T2737.056
    
    [GRAPHIC] [TIFF OMITTED] T2737.057
    
    [GRAPHIC] [TIFF OMITTED] T2737.058
    
    [GRAPHIC] [TIFF OMITTED] T2737.059
    
    [GRAPHIC] [TIFF OMITTED] T2737.060
    
    [GRAPHIC] [TIFF OMITTED] T2737.061
    
    [GRAPHIC] [TIFF OMITTED] T2737.062
    
    Senator Boxer. Thank you so much, Margaret. You were right 
on target, you made all your points. Very good.
    I am happy to call on Richard Glenn, an Arctic resident, 
Alaskan Arctic resident and a sea ice geologist. Welcome, sir.

 STATEMENT OF RICHARD GLENN, ALASKAN ARCTIC RESIDENT, SEA ICE 
                           GEOLOGIST

    Mr. Glenn. Thank you, Madam Chair. Thank you, Senator 
Inhofe and members of the Committee. Thank you for the 
opportunity to provide comments.
    My name is Richard Glenn, and I am the board present of the 
Barrow Arctic Science Consortium. This is an organization 
dedicated to bringing visiting researchers together with Arctic 
residents. I am an officer of the Arctic Slope Regional 
Corporation, which is a corporation for the Native people of 
Alaska's North Slope. I am here today as an Alaskan resident 
who studies sea ice, as a subsistence hunter, a whaling crew 
co-captain and a geologist. This issue is very important to me.
    I have only 5 minutes an my oral comments will summarize 
the most important points of my more detailed written 
testimony. I have studied sea ice for university-level work and 
have assisted many others in the sea ice environment. We 
Inupiaq hunters hunt on the ice each year, and our lives depend 
and the safety of our people depends on our knowledge of 
changing ice conditions.
    Along with many of our people, I am concerned about 
changing sea ice conditions. However, I question whether the 
loss of multi-year sea ice equals the loss of polar bear 
habitat. The most prominent point made by the Fish and Wildlife 
Service is about receding multi-year sea ice cover and its 
equivalence to the loss of polar bear habitat. There is little 
mention of the marginal ice zone, that area of ice that freezes 
and melts within a given year, mixed with open water and older 
ice. It is in this area that it grows at the expense of the 
loss of multi-year ice.
    The polar bear does not live only on the multi-year ice 
pack. Polar bears thrive in many settings. In late spring, 
polar bears come to the near-shore land-fast ice to hunt 
newborn seal pups located in dens beneath snow drifts. In 
summer, we observe polar bears hunting farther offshore in the 
marginal ice zone. Other polar bears will stay on the coast, 
not trapped there by the absence of sea ice, but to feed on 
living or dead animals along the shoreline. Groups of bears 
have even been seen by our villagers establishing an over-
wintering circle around a carcass, such as dead gray whale.
    My point is, none of the above hunting environments is on 
the multi-year ice pack. There is a year-long and varied cycle 
of habitats for polar bears. It is wrong to ignore them and 
focus only on how far the ice has receded. To do so is to 
ignore the polar bear's use of other habitats. Even the Fish 
and Wildlife Service study acknowledges that the increase of 
marginal ice cover may be beneficial for ice seals and polar 
bears.
    The proposed listing is not based on polar bear population 
levels or trends. There is not enough observational data for a 
listing. Polar bears are hard to count, and ice conditions are 
not so easy to predict form models or satellites. The proposed 
rule correlates a decline of sea ice cover with a decline of 
ring seals. The data is insufficient to support even this 
conclusion. Right now, in the Chukchi Sea, the satellites will 
tell you that our ocean is covered with new, young ice, and not 
the multi-year ice pack. Nevertheless, our hunters are 
reporting abundant and healthy ring seals as well as polar 
bears.
    There are many international mechanisms set up to conserve 
and protect the polar bear. In moving to the Endangered Species 
Act, let us not ignore those, such as the Marine Mammal 
Protection Act. If we really want to protect the species, let's 
do something about poaching, poaching by other countries. 
Alaskan Inupiaq people annually take about 45 to 50 bears from 
the Chukchi stock. Yet the same stock is suffering from 
poaching on the Russian side, with catch numbers around 200 per 
year.
    Our traditional knowledge is built upon thousands of years 
of experience in the Arctic environment. I encourage Congress 
to use our experience and science before taking action to list 
the polar bear as threatened. This is common sense and required 
by law.
    Senator Boxer. You have more time, if you want to go on.
    Mr. Glenn. Oh, I heard a buzzer. I thought you were----
    Senator Boxer. Not at all. You have another 45 seconds. Go 
right ahead.
    Mr. Glenn. A threatened listing for the polar bear, Madam 
Chair, will do little to aid the polar bear's existence. It 
will not create more sea ice cover. It will not change their 
ability to locate dens or prey. But it will disproportionately 
affect the lives of Inupiaq Eskimos who live along the Arctic 
coast. While America sleeps better at night falsely believing 
they have assisted this iconic species, they will still fly 
planes, drive cars and power their homes. We are very concerned 
about changes in climate changes in the Arctic, and have more 
reason than others to be aggressive. The proper methods to 
address those issues are to deal with climate change causes 
directly and not twist the Endangered Species Act listing of 
the polar bear into action directed at climate change.
    Thank you.
    [The prepared statement of Mr. Glenn follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.063
    
    [GRAPHIC] [TIFF OMITTED] T2737.064
    
    [GRAPHIC] [TIFF OMITTED] T2737.065
    
    [GRAPHIC] [TIFF OMITTED] T2737.066
    
          Response by Richard Glenn to an Additional Question 
                           from Senator Boxer

    Question. The Committee has received a statement for Ihere 
cord from groups representing Canadian Inuit peoples indicating 
that Ihe U.S. Fish and Wildlife Service has failed to 
sufficienlly consider Inuit Traditional Knowledge of Ihe polar 
bears during Ihe rulemaking process. They also state that USFWS 
does not consider or even examine the polar bear's abilily to 
adapt to changing and ice-free conditions. Do you agree that 
the USFWS is relying too much on computer models to determine 
the behavior, movement and overall health of polar bear 
populations? Could you provide some additional comment on this 
from the Alaska Inupiaq perspective?
    Response. In large part, the Canadian and Alaskan Inuit are 
in agreement. As I spent time in our villages discussing this 
issue with residents, I was repeatedly asked, ``Why doesn't 
Fish and Wildlife come to our villages and ask us?'' Inupiat 
hunters, our experts in the ice and animal sciences, have not 
been consulted throughout this process-specifically the USFWS 
has not sought our input or expert observations.
    The policymaking arm of the USFWS has little regard for 
input from the Native traditional knowledge. USFWS scientists 
have worked, over time, in places with local Native experts in 
very field-specific expeditions such as at Barter Island and 
Barrow. However, USFWS fail to incorporate traditional 
knowledge when they take their field research and attempt to 
synthesize it into publications that have far-reaching 
interpretations.
    Further, USFWS substitutes polar bear researchers for ice 
experts when talking about the future of the Arctic Ocean ice 
environment.

    Senator Boxer. Thank you, sir. Right on the nose.
    Dr. Armstrong, we welcome you. You are a Professor of 
Marketing at the Wharton School. Welcome.

STATEMENT OF J. SCOTT ARMSTRONG, PH.D., PROFESSOR OF MARKETING, 
         THE WHARTON SCHOOL, UNIVERSITY OF PENNSYLVANIA

    Mr. Armstrong. Thank you, Madam Chair, and thank the 
Committee for hearing me today.
    My name is Scott Armstrong, I am a Professor at the Wharton 
School at the University of Pennsylvania.
    As stated, the primary problem we are looking at today is 
what might happen to polar bears in the future. So I am 
addressing this Committee as an expert on forecasting. I have 
been working in the field for 48 years now.
    Please direct your attention to Exhibit 1. It is also in 
the report at the end. It is an unlabeled exhibit. The dots 
represent data points. As you look at that, assume you had the 
forecast for the rest of the 21st century. Is it going up, 
down, staying the same, or what is happening? I will come back 
to that later in the talk.
    In the mid-1990's, I started a project, the Principles of 
Forecasting Project. The idea was to summarize all of the 
knowledge that we had about forecasting and transform these 
into scientific principles. Here is an example. Be conservative 
in situations involving uncertainty. The project led to my 
handbook, ``Principles of Forecasting,'' in which 39 authors 
and 123 reviewers participated.
    Along with Dr. Kesten Green and Dr. Willie Soon, I examined 
two of the reports we have been talking about today. These are 
the reports by Amstrup and Hunter. We looked at those, because 
they are the ones most closely related to forecasting. We 
asked, ``Did the authors' procedures follow scientific 
principles?'' We made independent ratings, discussed them over 
followup rounds and reached agreement.
    Here is an example: keep the forecast independent of 
organizational politics. We all rated that as a contravention 
of the principle. Why? Because if you look at the front page of 
all these reports, they say that the purpose of the report is 
to support the polar bear listing decision.
    The reports involve a complex set of assumptions. In 
effect, they made assumptions where they should have made 
forecasts. The assumptions lacked validity, and we judged the 
reports to be invalid on that basis.
    But we went further. We said, what if all those assumptions 
were true? Did they at least use the proper methods to arrive 
at a polar bear forecast?
    I would like you to look at Exhibit 2. This shows the 
results of our audit. We found that the Amstrup report 
contravened 41 of the principles, the Hunter report contravened 
61, and so on down the line. What is most important to look at 
is how many principles did they really follow? And it turns out 
that they properly applied, in the case of Amstrup, 17, and in 
the case of Hunter, 10.
    Now, on a percentage basis, that means they followed 12 
percent of the relevant principles. I wonder how many 
occupations there are in our Country where you can follow only 
12 percent of the recommended policy and procedures?
    The forecasts in those reports rested heavily on unaided 
judgment. By unaided, expert judgment, I mean unaided by 
scientific principles. Now, consider this. Unaided experts' 
forecasts are of no value when the situation is complex and 
uncertain. It is an astounding finding. I will repeat: unaided 
expert forecasts are of no value when the situation is complex 
and uncertain. I ran across this in my long-range forecasting 
book in 1978. Dr. Tetlock recently came out with a massive 20-
year study supporting this. His study involved over 80,000 
forecasts.
    Please look again at the original unlabeled graph. I am now 
going to show you how the administrative report forecast that 
polar bear population would decrease rapidly. The graph relates 
to ice-free days and it comes from one of the Administration 
reports. They forecasted a sharp increase in ice-free days. How 
is that possible from the data? It is not possible. It only 
happened because they ignored the data. Instead, they relied on 
climate models.
    The climate models do not provide forecasts. They provide 
so-called scenarios. Now, let's examine the graph with labels. 
The filled-in dots that you will see show the data that were 
used to determine the relationship between ice-free days and 
the polar bear population, 5 years. Now, is it possible to 
estimate this causal relationship with 5 years of observations? 
The answer is no.
    The above analysis indicated contraventions of principles 
such as, use all available important data, use the most recent 
data, use simple forecasting methods and be conservative in 
cases of high uncertainty.
    I would like to end on a very positive note. We know how to 
approach this problem in a scientific way.
    Senator Boxer. OK, but you have to be positive in just a 
few seconds. But go ahead.
    Mr. Armstrong. I have six recommendations for approaching 
this in a scientific matter.
    Senator Boxer. Just give one sentence for each one of them, 
and then you have gone over.
    Mr. Armstrong. Use a variety of forecasting methods; 
generate a list of alternative solutions and prepare forecasts; 
commission forecasts by independent teams; promote 
collaboration among polar bear climate experts along with 
forecasting experts; require forecasts be based on audited 
methods and don't tolerate any contraventions; combine all 
forecasts based on procedures that pass the audit.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Armstrong follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.067
    
    [GRAPHIC] [TIFF OMITTED] T2737.068
    
    [GRAPHIC] [TIFF OMITTED] T2737.069
    
    [GRAPHIC] [TIFF OMITTED] T2737.070
    
    [GRAPHIC] [TIFF OMITTED] T2737.071
    
    [GRAPHIC] [TIFF OMITTED] T2737.072
    
    [GRAPHIC] [TIFF OMITTED] T2737.073
    
    [GRAPHIC] [TIFF OMITTED] T2737.074
    
    [GRAPHIC] [TIFF OMITTED] T2737.075
    
    [GRAPHIC] [TIFF OMITTED] T2737.076
    
    [GRAPHIC] [TIFF OMITTED] T2737.077
    
    [GRAPHIC] [TIFF OMITTED] T2737.078
    
    [GRAPHIC] [TIFF OMITTED] T2737.079
    
    [GRAPHIC] [TIFF OMITTED] T2737.080
    
    [GRAPHIC] [TIFF OMITTED] T2737.081
    
    [GRAPHIC] [TIFF OMITTED] T2737.082
    
    [GRAPHIC] [TIFF OMITTED] T2737.083
    
    [GRAPHIC] [TIFF OMITTED] T2737.084
    
    [GRAPHIC] [TIFF OMITTED] T2737.085
    
    [GRAPHIC] [TIFF OMITTED] T2737.086
    
    [GRAPHIC] [TIFF OMITTED] T2737.087
    
    [GRAPHIC] [TIFF OMITTED] T2737.088
    
    [GRAPHIC] [TIFF OMITTED] T2737.089
    
    [GRAPHIC] [TIFF OMITTED] T2737.090
    
    [GRAPHIC] [TIFF OMITTED] T2737.091
    
    [GRAPHIC] [TIFF OMITTED] T2737.092
    
    [GRAPHIC] [TIFF OMITTED] T2737.093
    
    [GRAPHIC] [TIFF OMITTED] T2737.094
    
    [GRAPHIC] [TIFF OMITTED] T2737.095
    
    [GRAPHIC] [TIFF OMITTED] T2737.096
    
    [GRAPHIC] [TIFF OMITTED] T2737.097
    
    [GRAPHIC] [TIFF OMITTED] T2737.098
    
    [GRAPHIC] [TIFF OMITTED] T2737.099
    
    [GRAPHIC] [TIFF OMITTED] T2737.100
    
    [GRAPHIC] [TIFF OMITTED] T2737.101
    
    [GRAPHIC] [TIFF OMITTED] T2737.102
    
    [GRAPHIC] [TIFF OMITTED] T2737.103
    
    [GRAPHIC] [TIFF OMITTED] T2737.104
    
    [GRAPHIC] [TIFF OMITTED] T2737.105
    
    [GRAPHIC] [TIFF OMITTED] T2737.106
    
    [GRAPHIC] [TIFF OMITTED] T2737.107
    
    [GRAPHIC] [TIFF OMITTED] T2737.108
    
    [GRAPHIC] [TIFF OMITTED] T2737.109
    
    [GRAPHIC] [TIFF OMITTED] T2737.110
    
    [GRAPHIC] [TIFF OMITTED] T2737.111
    
    [GRAPHIC] [TIFF OMITTED] T2737.112
    
    [GRAPHIC] [TIFF OMITTED] T2737.113
    
    [GRAPHIC] [TIFF OMITTED] T2737.114
    
    [GRAPHIC] [TIFF OMITTED] T2737.115
    
    [GRAPHIC] [TIFF OMITTED] T2737.116
    
    Senator Boxer. Thank you very much.
    And now, last but not least, by any means, is Andrew 
Wetzler, Director, Endangered Species Project for the Natural 
Resources Defense Council. Welcome, sir.

 STATEMENT OF ANDREW E. WETZLER, DIRECTOR, ENDANGERED SPECIES 
           PROJECT, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Wetzler. Thank you for having me, Madam Chairman, thank 
you, members of the Committee.
    You have my written statement, and rather than reiterating 
it now, I thought that I could just briefly respond to three of 
the points that we have heard in testimony from panelists, and 
I think questions from the Senators throughout the day.
    The first is with regard to the role of modeling. Now, 
modeling is obviously a very important part of the Fish and 
Wildlife Service's conclusion that polar bears are threatened 
with extinction because of global warming. But it is not by any 
means the only basis. In fact, there are two separate, 
empirical, peer-reviewed bases for coming to that conclusion.
    First are literally dozens of published papers observing 
behavioral and population changes in polar bear populations 
around the world. These include population declines, increased 
pup and young polar bear mortality, starvation in some 
populations, male polar bears turning to cannibalism in some 
populations, an increase in spike in drownings during storm 
events, and alterations in essential polar bear behavior, such 
as the location of maternal dens.
    Now, all of those empirical observations are completely 
consistent with and indeed, are predicted by the decline of sea 
ice caused by global warming.
    Second, a lot of the declining sea ice, as has been pointed 
out, and as is illustrated by the exhibit showing the decline 
of sea ice from 1980 to 2007, is in fact empirical. Those 
pictures are not forecasts, they are not models. That is 
observed sea ice loss. That is a sea ice loss that represents a 
million square miles of polar bear habitat. That is six 
Californias.
    The second point I wanted to make very briefly was to 
respond to some of the testimony that we have heard about the 
Marine Mammal Protection Act. Now, there is no doubt that the 
Marine Mammal Protection Act is an important, landmark law in 
protecting marine mammals around the world. But the suggestion 
that the Endangered Species Act does not provide any additional 
or special protections for the polar bear if the polar bear was 
to be listed I think is just false.
    And just very briefly, there is no equivalent of the 
Section 7 consultation procedure that we have heard so much 
about today in the Marine Mammal Protection Act. There is no 
requirement in the Marine Mammal Protection Act to protect 
habitat essential to the conservation of the species. That is 
an explicit requirement under the Critical Habitat Provisions 
of the Endangered Species Act. And there is no requirement in 
the Marine Mammal Protection Act which is present in the 
Endangered Species Act to prepare a recovery plan for a 
species, which would be a very important part of saving the 
polar bear in the long term, as the obligation under the 
Endangered Species Act to prepare a recovery plan for the polar 
bear.
    Finally, I just wanted to briefly address, I think, the 
coincidence and timing between the delay that the U.S. Fish and 
Wildlife Service took, the extra legal delay, and the proposed 
lease sale that is going to go forward in the Chukchi Sea on 
February 6th. Senator Boxer, I think that you were right to 
point out that this has raised suspicions in many people's 
minds. I think given the history of this Administration, those 
suspicions are well-founded.
    But even if we want to give Director Hall the benefit of 
the doubt, and the Fish and Wildlife Service, and assume that 
the delay was simply caused by bureaucratic reasons, I think it 
is essential to recognize that there is absolutely no reason on 
the other side of the equation, on the Minerals Management 
Service side of the equation, to move ahead with this lease 
sale now. There is nothing preventing the Secretary of the 
Interior form simply reopening the decision to proceed with the 
lease sale and hold it in abeyance until the Fish and Wildlife 
Service makes a considered decision about whether or not to 
list the polar bear. At a minimum, I would urge the 
Administration to take that very common sense step, which I 
think would defuse a lot of these suspicions.
    Thank you.
    [The prepared statement of Mr. Wetzler follows:]

    [GRAPHIC] [TIFF OMITTED] T2737.117
    
    [GRAPHIC] [TIFF OMITTED] T2737.118
    
    [GRAPHIC] [TIFF OMITTED] T2737.119
    
    [GRAPHIC] [TIFF OMITTED] T2737.120
    
    [GRAPHIC] [TIFF OMITTED] T2737.121
    
    [GRAPHIC] [TIFF OMITTED] T2737.122
    
    [GRAPHIC] [TIFF OMITTED] T2737.123
    
    [GRAPHIC] [TIFF OMITTED] T2737.124
    
    [GRAPHIC] [TIFF OMITTED] T2737.125
    
    [GRAPHIC] [TIFF OMITTED] T2737.126
    
    [GRAPHIC] [TIFF OMITTED] T2737.127
    
    [GRAPHIC] [TIFF OMITTED] T2737.128
    
    [GRAPHIC] [TIFF OMITTED] T2737.129
    
    [GRAPHIC] [TIFF OMITTED] T2737.130
    
    [GRAPHIC] [TIFF OMITTED] T2737.131
    
    [GRAPHIC] [TIFF OMITTED] T2737.132
    
    [GRAPHIC] [TIFF OMITTED] T2737.133
    
    [GRAPHIC] [TIFF OMITTED] T2737.134
    
    [GRAPHIC] [TIFF OMITTED] T2737.135
    
    [GRAPHIC] [TIFF OMITTED] T2737.136
    
    [GRAPHIC] [TIFF OMITTED] T2737.137
    
    [GRAPHIC] [TIFF OMITTED] T2737.138
    
    [GRAPHIC] [TIFF OMITTED] T2737.139
    
    [GRAPHIC] [TIFF OMITTED] T2737.140
    
    [GRAPHIC] [TIFF OMITTED] T2737.141
    
    [GRAPHIC] [TIFF OMITTED] T2737.142
    
    [GRAPHIC] [TIFF OMITTED] T2737.143
    
    [GRAPHIC] [TIFF OMITTED] T2737.144
    
    [GRAPHIC] [TIFF OMITTED] T2737.145
    
    [GRAPHIC] [TIFF OMITTED] T2737.146
    
    [GRAPHIC] [TIFF OMITTED] T2737.147
    
    [GRAPHIC] [TIFF OMITTED] T2737.148
    
    [GRAPHIC] [TIFF OMITTED] T2737.149
    
    [GRAPHIC] [TIFF OMITTED] T2737.150
    
    [GRAPHIC] [TIFF OMITTED] T2737.151
    
    [GRAPHIC] [TIFF OMITTED] T2737.152
    
    Senator Boxer. Thank you so much, Mr. Wetzler.
    I am going to have my Ranking Member question first, 
because he needs to leave, and then I will finish up. But I did 
want to recognize students in the back there from James Logan 
High School, Union City, California. I am very proud that you 
came in and that you care about the environment. We are very 
pleased that you are here.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Dr. Armstrong, when you were talking, this chart up here, 
first of all, did you say that you had a paper that you wrote 
in 1978?
    Mr. Armstrong. I was writing books on long-range 
forecasting then.
    Senator Inhofe. You were writing books in 1978?
    Mr. Armstrong. Well, I have been in this field for 48 years 
now.
    Senator Inhofe. Wow. I thought maybe I heard wrong. You are 
the forecasting expert, I recognize that.
    When I saw this before your testimony, the fact that 
they're using the 5-years, it is my understanding that three of 
those years showed normal sea ice coverage with high numbers of 
polar bear births and only two showed receding with a slightly 
less births. But the USGS used the 2-years. Is this correct? Or 
is my information wrong?
    Mr. Armstrong. I know there are a lot of questions about 
the quality of the data. My major point is, you cannot possibly 
use 5 years of data to estimate a causal relationship.
    Senator Inhofe. But even with those 5 years of data, you 
cherry-picked the two worst years, that would be even more 
egregious?
    Mr. Armstrong. Yes.
    Senator Inhofe. And I want to get back with another 
question. Richard Glenn, it is kind of interesting, your 
background, I understand you were at the University of Alaska 
and University of Nebraska, San Jose State and also a 
subsistence hunter. So you have been on the ground for quite 
some time.
    In your testimony, you take issue with the FWS focus on the 
multi-year pack ice, and their neglect of the bears' activity 
on marginal ice. You also discuss how polar bears travel great 
distances to move between populations. Could you elaborate a 
little bit on that, why that is significant?
    Mr. Glenn. The polar bear is an opportunistic hunter. It 
will follow its nose wherever it can find food. And the 
scientists have documented, for example, a polar bear denning 
in the Beaufort Sea, in the central Beaufort Sea, and that 
polar bear then drifting with the ice pack as far as the 
Wrangell Island area. Then as soon as the polar bear gave 
birth, the mother and cubs made a beeline back to the Beaufort 
Sea.
    Now, this shows that polar bears can migrate between what 
you see as wedges on the map as population stocks. And it shows 
that part of their lifestyle is to move great distances. So how 
do you count polar bear population stocks when you have this 
flux between these different areas?
    Senator Inhofe. That is interesting. In the testimony, and 
I don't remember whose it was, we talked about the number of 
things that are there for protection today, the Marine Mammal 
Act has been referred to several times, there are several 
international conservation agreements, educational outreach 
efforts. What are some of the ways in which the bear is 
protected already, and do you think we really need this ESA 
listing in addition to those that are already in place.
    Mr. Glenn. Right, thank you. Several of the presenters 
today have talked about the various agreements and acts that 
are currently in place for protection of the polar bear. And 
they include the organizations of the Native people across the 
circum-Arctic and agreements that they have made about the 
harvest. What is lacking, though, is the ability, for example, 
to stop the poaching of polar bears by the Russians, where so 
many of the bears that live in our area are suffering from 
today. The agreements in place today are doing things like 
limiting to sustainable numbers the number of polar bears that 
are taken by subsistence hunters, by my people, the people that 
live along coastal Alaska and Arctic Canada.
    So the list is long. There is the Alaska Chukotka polar 
bear population studies, United States-Russian Polar Bear 
Conservation and Management Act, there is of course the Marine 
Mammal Protection Act.
    Senator Inhofe. You think those are adequate, that are 
there right now?
    Mr. Glenn. Yes.
    Senator Inhofe. And Dr. Armstrong, in your, well, first of 
all, you probably don't know this, I have been critical of 
computer modeling for quite some time and the deficiencies that 
are there, not just insofar as polar bears are concerned, but 
insofar as anthropogenic gases and what effect they actually 
have on climate change.
    In your testimony, you point out that the USGS study 
included various assumptions. Can you briefly outline those 
assumptions?
    Mr. Armstrong. Yes. There were five assumptions. The first 
assumption is that global warming will occur. The second 
assumption is that polar bears will obtain less food by hunting 
from reduced sea ice platform. The third is that bears will not 
be able to adequately obtain supplementary food, using other 
means from other sources.
    Four, the designation of polar bears as an endangered 
species will solve the problem and will not have any 
detrimental effects. And five, and I think probably the most 
important one, is that there are no other policies that would 
produce a better outcome than those based on the endangered 
species classification.
    Senator Inhofe. Well, I might disagree, I think your first 
one is more significant. But that is fine.
    I appreciate that very much. I regret that I won't be able 
to stay afterwards, to come and thank you individually for 
coming. But you have come a long way, and I appreciate all five 
of you being here and your testimony. Thank you for allowing me 
to go first, Madam Chairman.
    Senator Boxer. Senator, thank you so very much.
    Well, I think if we heard some of this testimony way back 
when from people like Dr. Armstrong and Mr. Glenn, we never 
would have saved the bald eagle. And I am going to pursue that.
    Mr. Glenn, you said in your statement that you are an 
officer of the Arctic Slope Regional Corporation. And I read 
what that organization does, so I think we will put it in the 
record. The Arctic Slope Regional Corporation is committed to 
developing the resources and bringing to market, meaning oil, 
gas, coal and base metal sulfides. And bringing them to market 
in a manner that respects the Inupiaq subsistence values while 
ensuring proper care of the environment.
    I think it is important to note that everybody who comes 
here has a certain background. When you come to this table to 
come to the polar bear and you belong to a corporation that 
wants to develop the resources, I just think it needs to be 
placed in the record. So I am going to place in the record what 
this Arctic Slope Regional Corporation does.

    [The referenced material follows:]

    Senator Boxer. Now, Dr. Scott, you are a Ph.D. in what? Dr. 
Armstrong.
    Mr. Armstrong. I went to MIT, so I basically had three 
areas, one was economics, another was social psychology and the 
other was marketing.
    Senator Boxer. Economics, social psychology and marketing. 
Are you a biologist?
    Mr. Armstrong. No.
    Senator Boxer. Are you a polar bear expert?
    Mr. Armstrong. No.
    Senator Boxer. Are you an expert in wildlife of any sort?
    Mr. Armstrong. No.
    Senator Boxer. Are you an ecologist?
    Mr. Armstrong. Pardon me?
    Senator Boxer. Are you a climatologist?
    Mr. Armstrong. No, I am not.
    Senator Boxer. So you are bringing your marketing 
experience here.
    Mr. Armstrong. No, I am bringing my forecasting methods 
experience.
    Senator Boxer. But you are not, I just want to say for the 
record, an expert on the polar bear, you have never studied the 
polar bear, you have never gone out to see what is going on. 
Have you read the USGS report that talks about the polar bear?
    Mr. Armstrong. That is what we analyzed. But I think that 
is an advantage for me----
    Senator Boxer. Whoa, whoa, whoa. No, no, no. I am not 
asking what you analyzed. I am asking you if you read the USGS 
report on the polar bear----
    Mr. Armstrong. Well, we read----
    Senator Boxer [continuing].--before you made your statement 
that there is a high degree of uncertainty? Did you read the 
USGS report that says that two-thirds of the world's current 
polar bear population will be gone by mid-century if the ice 
continues to be lost at the rate it is now?
    Mr. Armstrong. That is what we did our audit on. That was 
what I reported on.
    Mr. Armstrong. I did. It is all marked up here.
    Senator Boxer. You did. OK, very good. So I would like to 
ask Dr. Kelly and the other members of the panel, Mr. Wetzler 
and Ms. Williams do you feel that there is a high degree of 
uncertainty or instability about the information you are 
looking at on what is happening with the polar bears? I will 
start with Dr. Kelly.
    Mr. Kelly. No. It is a remarkable amount of information on 
those populations, due to the efforts, primarily, of USGS 
biologists over a number of years. There are always 
uncertainties in any kind of data. I think it is important to 
recognize that there is a bit of a culture difference, I think, 
going on here between the way social scientists approach 
modeling and the way biologists and ecologists do.
    Senator Boxer. Yes.
    Mr. Kelly. I was a dean for several years in a school of 
arts and sciences. I struggled regularly with this difference 
in culture and language between economics and natural 
scientists. They both have their developed theories and 
approaches to modeling. As Senator Lautenberg so well put it, 
models are valuable and used in many, many different arenas. 
But there are these different disciplines that use them 
differently, they have different languages and they typically 
don't talk together very well.
    So if you go through the literature in ecology, you won't 
find a lot of references to Dr. Armstrong's book and that 
approach, which isn't to say it is not a good approach.
    Senator Boxer. OK, so just to sum it up, because we don't 
have a lot of time to have professorial back and forths, you 
find the information not to be confusing in terms of the 
threats? You don't find it to be uncertain at this point? Your 
research shows that the polar bear is threatened and will 
continue to be if the ice loss continues, is that correct?
    Mr. Kelly. That is correct.
    Senator Boxer. OK. Do you agree with that, Ms. Williams?
    Ms. Williams. Yes, Senator Boxer, we are fortunate to have 
had several major reports in the last few years published that 
show great certainty on changes in the ice, on changes in the 
climate. These include the Intergovernmental Panel on Climate 
Change, the Arctic Climate Impact Assessment, they all show 
tremendous changes, increases in temperature, loss of sea ice, 
and the Arctic is changing at the fastest rate. The Arctic is 
the most vulnerable to climate change impacts throughout the 
world.
    I also want to bring attention to a series of reports that 
the IUCN Polar Bear Specialist Group has been issuing on a 
regular basis. In 2004 and 2005 and 2006, IUCN, again, the 
world's preeminent body of polar bear specialists, have drawn 
attention to their concern on the future of the polar bear. In 
2005, IUCN reclassified, actually it was 2006, the polar from 
least concern to vulnerable. In 2004, Andy Derocher, one of the 
leading polar bear scientists from Canada, said that 
predictions are uncertain, but we conclude that the future 
persistence of polar bears is tenuous.
    So for years now, we have been hearing the concerns of 
people who are out there studying and observing the changes in 
body condition, and there is empirical evidence and it is quite 
certain that polar bears are suffering as a result of lost time 
on the sea ice.
    Senator Boxer. Mr. Wetzler, I assume you agree with that. I 
do have a question about the drilling. There is a report I am 
going to place in the record published by the National 
Academy's Press called Cumulative Environmental Effects of Oil 
and Gas Activities on Alaska's North Slope. In there, in that 
report, and it is done with a whole consortium of groups, they 
say climate warming at predicted rates in the Beaufort Sea 
region is likely to have serious consequences for ring seals 
and polar bears, and those affects will accumulate with the 
effects of oil and gas activities in the region.
    And therefore, when you raised the issue of this lease 
sale, I understand, as representing the Endangered Species 
Project of NRDC, you see that this has a consequence and you 
are concerned, as I am, about this situation where we see a 
rush to a lease sale and a delay to a listing. I wanted you to 
expand on that.
    I feel very strongly that when bureaucrats break the law, 
there ought be consequences. I think the consequences should be 
a lawsuit, and I am wondering whether you have heard if there 
would be that possibility. Because this thing is a nightmare.
    Suppose they issue this lease and it has no conditions to 
protect the polar bear and the lease is good for many years. We 
know how that goes. And then we find out 2 weeks later that in 
fact, there is a finding made that this is true, that there is 
in fact a connection. It would be a disaster, and we would have 
to now go, I guess you would, I would try to overturn it 
legislatively, that is hard. You would try to overturn it, I am 
sure, in a lawsuit. But what are the chances that we could see 
some lawsuits here because of this outrageous missing of the 
deadline, and then this strange, miraculous timing of this oil 
lease?
    Mr. Wetzler. I think, Senator, you are very like to see 
lawsuits on both issues. The Natural Resources Defense Council 
and the Center for Biological Diversity and Greenpeace have 
already informed Secretary Hall that if he does not rectify his 
illegal action by missing the deadline, we are going to sue 
him. We have to wait 60 days before we can file that lawsuit. 
But in the first week of March, if there is not a decision, we 
are going to take him to court.
    And as far as the lease sale goes, I think that there will 
also be legal action by a broad coalition of groups in Alaska 
who are opposed to the lease sale, which is not just 
conservationists, but also Native groups and some government 
groups as well.
    Senator Boxer. Well, I think that is very important. 
Because, and I just want to say to the environmental 
organizations who are here or who may be in the audience or 
supporters, you are really the wind at my back. I don't know 
what I would do with this Administration and this tough Senate 
right now in terms of living up to the letter of the law. This 
is not a question of oh, gee, I will wait until tomorrow. The 
law says the decision should have been made, and there is this 
connection.
    So in closing, I want to take another look at the polar 
bear in all its glory and just say, this is pretty 
straightforward deal here. I guess, Mr. Glenn, when you say the 
polar bear can live on thin ice, which is essentially what you 
are saying, because if you go back to the loss of ice, I don't 
think anyone here is disputing, I don't even think Dr. 
Armstrong or Mr. Glenn are disputing the fact that the ice has 
been lost, but Mr. Glenn says, oh, the polar bear can live on 
this thin ice.
    I guess I would like to ask you, Mr. Wetzler, since you are 
in charge of this project, what your response is to that. Can 
this polar bear live the way this polar bear has lived on thin 
ice that may or may not come back because of the climate 1 year 
or another?
    Mr. Wetzler. If I can answer that by saying, and this goes 
back to your earlier question that, I have reviewed a lot of 
Endangered Species Act petitions and a lot of decisions by the 
U.S. Fish and Wildlife Service under the Endangered Species 
Act. This petition is remarkable for the unanimity and the 
strength of the scientific evidence supporting it. I don't 
think that there is any scientific question that the polar 
bears are endangered under the Endangered Species Act.
    I think to answer your specific question about the 
difference between seasonal and permanent ice pack that Dr. 
Kelly would be a more appropriate person to ask.
    Senator Boxer. OK, I will ask Dr. Kelly that question. The 
difference between the permafrost, or the living on the sea 
ice, the thin ice that might come 1 year or the next for the 
polar bear.
    Mr. Kelly. Well, the question is not just a matter of the 
thickness, but it is also the regional extent. And the ice is 
retracting such that their habitat is shrinking at an alarming 
rate and will be gone during the summer before the century is 
over.
    Senator Boxer. So let's take a look at the polar bear on 
the thick snow there, just looking to go in to get its prey, is 
what we pretty much think is happening, that one, yes. And I 
think we should keep this in our mind. I think that we all 
believe, because we are at the top of the chain, that nothing 
else matters. That is not true. And we all know this is not 
true. And we could have so much hubris that at the end of the 
day, we are the ones who are threatened.
    I feel my work is not only about saving God's creation, but 
also about protecting human beings. Because at the end of the 
day, it is just all connected.
    So I just want to thank all of our witnesses, regardless of 
their perspectives, for coming here today. And this Committee 
is dedicated to dealing with the issue of global warming. We 
are having a very important briefing this afternoon. Everyone 
is invited to come. We have the chair of the IPCC who will be 
before us, and he is going to go into what the IPCC has found 
about this.
    So we really appreciate your being here and we stand 
adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2737.159
    
    [GRAPHIC] [TIFF OMITTED] T2737.160
    
    [GRAPHIC] [TIFF OMITTED] T2737.161
    
    [GRAPHIC] [TIFF OMITTED] T2737.162
    
    [GRAPHIC] [TIFF OMITTED] T2737.163
    
    [GRAPHIC] [TIFF OMITTED] T2737.164
    
    [GRAPHIC] [TIFF OMITTED] T2737.165
    
    [GRAPHIC] [TIFF OMITTED] T2737.166
    
    [GRAPHIC] [TIFF OMITTED] T2737.167
    
    [GRAPHIC] [TIFF OMITTED] T2737.168
    
    [GRAPHIC] [TIFF OMITTED] T2737.169
    
    [GRAPHIC] [TIFF OMITTED] T2737.170
    
    [GRAPHIC] [TIFF OMITTED] T2737.171
    
    [GRAPHIC] [TIFF OMITTED] T2737.172
    
    [GRAPHIC] [TIFF OMITTED] T2737.173
    
    [GRAPHIC] [TIFF OMITTED] T2737.174
    
    [GRAPHIC] [TIFF OMITTED] T2737.175
    
    [GRAPHIC] [TIFF OMITTED] T2737.176
    
    [GRAPHIC] [TIFF OMITTED] T2737.177
    
    [GRAPHIC] [TIFF OMITTED] T2737.178
    
    [GRAPHIC] [TIFF OMITTED] T2737.399
    
    [GRAPHIC] [TIFF OMITTED] T2737.400
    
    [GRAPHIC] [TIFF OMITTED] T2737.401
    
    [GRAPHIC] [TIFF OMITTED] T2737.402
    
    [GRAPHIC] [TIFF OMITTED] T2737.403
    
    [GRAPHIC] [TIFF OMITTED] T2737.404
    
    [GRAPHIC] [TIFF OMITTED] T2737.405
    
    [GRAPHIC] [TIFF OMITTED] T2737.179
    
    [GRAPHIC] [TIFF OMITTED] T2737.180
    
    [GRAPHIC] [TIFF OMITTED] T2737.181
    
    [GRAPHIC] [TIFF OMITTED] T2737.182
    
    [GRAPHIC] [TIFF OMITTED] T2737.183
    
    [GRAPHIC] [TIFF OMITTED] T2737.184
    
    [GRAPHIC] [TIFF OMITTED] T2737.185
    
    [GRAPHIC] [TIFF OMITTED] T2737.186
    
    [GRAPHIC] [TIFF OMITTED] T2737.187
    
    [GRAPHIC] [TIFF OMITTED] T2737.188
    
    [GRAPHIC] [TIFF OMITTED] T2737.189
    
    [GRAPHIC] [TIFF OMITTED] T2737.190
    
    [GRAPHIC] [TIFF OMITTED] T2737.191
    
    [GRAPHIC] [TIFF OMITTED] T2737.192
    
    [GRAPHIC] [TIFF OMITTED] T2737.193
    
    [GRAPHIC] [TIFF OMITTED] T2737.194
    
    [GRAPHIC] [TIFF OMITTED] T2737.195
    
    [GRAPHIC] [TIFF OMITTED] T2737.196
    
    [GRAPHIC] [TIFF OMITTED] T2737.197
    
    [GRAPHIC] [TIFF OMITTED] T2737.198
    
    [GRAPHIC] [TIFF OMITTED] T2737.199
    
    [GRAPHIC] [TIFF OMITTED] T2737.200
    
    [GRAPHIC] [TIFF OMITTED] T2737.201
    
    [GRAPHIC] [TIFF OMITTED] T2737.202
    
    [GRAPHIC] [TIFF OMITTED] T2737.203
    
    [GRAPHIC] [TIFF OMITTED] T2737.204
    
    [GRAPHIC] [TIFF OMITTED] T2737.205
    
    [GRAPHIC] [TIFF OMITTED] T2737.206
    
    [GRAPHIC] [TIFF OMITTED] T2737.207
    
    [GRAPHIC] [TIFF OMITTED] T2737.208
    
    [GRAPHIC] [TIFF OMITTED] T2737.209
    
    [GRAPHIC] [TIFF OMITTED] T2737.210
    
    [GRAPHIC] [TIFF OMITTED] T2737.211
    
    [GRAPHIC] [TIFF OMITTED] T2737.212
    
    [GRAPHIC] [TIFF OMITTED] T2737.213
    
    [GRAPHIC] [TIFF OMITTED] T2737.214
    
    [GRAPHIC] [TIFF OMITTED] T2737.215
    
    [GRAPHIC] [TIFF OMITTED] T2737.216
    
    [GRAPHIC] [TIFF OMITTED] T2737.217
    
    [GRAPHIC] [TIFF OMITTED] T2737.218
    
    [GRAPHIC] [TIFF OMITTED] T2737.219
    
    [GRAPHIC] [TIFF OMITTED] T2737.220
    
    [GRAPHIC] [TIFF OMITTED] T2737.221
    
    [GRAPHIC] [TIFF OMITTED] T2737.222
    
    [GRAPHIC] [TIFF OMITTED] T2737.223
    
    [GRAPHIC] [TIFF OMITTED] T2737.224
    
    [GRAPHIC] [TIFF OMITTED] T2737.225
    
    [GRAPHIC] [TIFF OMITTED] T2737.226
    
    [GRAPHIC] [TIFF OMITTED] T2737.227
    
    [GRAPHIC] [TIFF OMITTED] T2737.228
    
    [GRAPHIC] [TIFF OMITTED] T2737.229
    
    [GRAPHIC] [TIFF OMITTED] T2737.230
    
    [GRAPHIC] [TIFF OMITTED] T2737.231
    
    [GRAPHIC] [TIFF OMITTED] T2737.232
    
    [GRAPHIC] [TIFF OMITTED] T2737.233
    
    [GRAPHIC] [TIFF OMITTED] T2737.234
    
    [GRAPHIC] [TIFF OMITTED] T2737.235
    
    [GRAPHIC] [TIFF OMITTED] T2737.236
    
    [GRAPHIC] [TIFF OMITTED] T2737.237
    
    [GRAPHIC] [TIFF OMITTED] T2737.238
    
    [GRAPHIC] [TIFF OMITTED] T2737.239
    
    [GRAPHIC] [TIFF OMITTED] T2737.240
    
    [GRAPHIC] [TIFF OMITTED] T2737.241
    
    [GRAPHIC] [TIFF OMITTED] T2737.242
    
    [GRAPHIC] [TIFF OMITTED] T2737.243
    
    [GRAPHIC] [TIFF OMITTED] T2737.244
    
    [GRAPHIC] [TIFF OMITTED] T2737.376
    
    [GRAPHIC] [TIFF OMITTED] T2737.377
    
    [GRAPHIC] [TIFF OMITTED] T2737.378
    
    [GRAPHIC] [TIFF OMITTED] T2737.379
    
    [GRAPHIC] [TIFF OMITTED] T2737.380
    
    [GRAPHIC] [TIFF OMITTED] T2737.381
    
    [GRAPHIC] [TIFF OMITTED] T2737.382
    
    [GRAPHIC] [TIFF OMITTED] T2737.383
    
    [GRAPHIC] [TIFF OMITTED] T2737.384
    
    [GRAPHIC] [TIFF OMITTED] T2737.385
    
    [GRAPHIC] [TIFF OMITTED] T2737.386
    
    [GRAPHIC] [TIFF OMITTED] T2737.387
    
    [GRAPHIC] [TIFF OMITTED] T2737.388
    
    [GRAPHIC] [TIFF OMITTED] T2737.389
    
    [GRAPHIC] [TIFF OMITTED] T2737.390
    
    [GRAPHIC] [TIFF OMITTED] T2737.391
    
    [GRAPHIC] [TIFF OMITTED] T2737.392
    
    [GRAPHIC] [TIFF OMITTED] T2737.393
    
    [GRAPHIC] [TIFF OMITTED] T2737.394
    
    [GRAPHIC] [TIFF OMITTED] T2737.395
    
    [GRAPHIC] [TIFF OMITTED] T2737.396
    
    [GRAPHIC] [TIFF OMITTED] T2737.397
    
    [GRAPHIC] [TIFF OMITTED] T2737.398
    
    [GRAPHIC] [TIFF OMITTED] T2737.406
    
    [GRAPHIC] [TIFF OMITTED] T2737.407
    
    [GRAPHIC] [TIFF OMITTED] T2737.408
    
    [GRAPHIC] [TIFF OMITTED] T2737.409
    
    [GRAPHIC] [TIFF OMITTED] T2737.410
    
    [GRAPHIC] [TIFF OMITTED] T2737.411
    
    [GRAPHIC] [TIFF OMITTED] T2737.412
    
    [GRAPHIC] [TIFF OMITTED] T2737.413
    
    [GRAPHIC] [TIFF OMITTED] T2737.414
    
    [GRAPHIC] [TIFF OMITTED] T2737.415
    
    [GRAPHIC] [TIFF OMITTED] T2737.416
    
    [GRAPHIC] [TIFF OMITTED] T2737.417
    
    [GRAPHIC] [TIFF OMITTED] T2737.418
    
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
